Semiannual Report
 to the Congress
April 1, 1992 - September 30, 1992




    U.S. General Services Administration
         Office of Inspector General
         Foreword

This report summarizes the Office of Inspector General's
(OIG) activities between April 1, 1992 and September 30,
1992. During this period, OIG resources have focused on
matters of significant concern within GSA. I would like to
highlight several accomplishments that are important to both
the OIG and GSA.
Six Federal suppliers agreed to pay over $11 million to settle
their civil liability. We had a successful case under the
Program Fraud Civil Remedies Act. We reviewed an area that
has been identified as "high risk" and provided a
recommendation for corrective action.
Also during the period, we issued 215 preaward contract
audit reports to Agency officials. These reports evaluated
$1.2 billion in potential Government-wide expenditures for
space, supplies, materials, and services and contained over
$106 million in financial recommendations.
Our internal audits examined the efficiency, effectiveness,
and integrity of GSA programs and operations and resulted
in 104 reports to management which included recommen-
dations for improvement. For example, one of our internal
reviews advised management of the need to report an
Antideficiency Act violationfor thefunding of a major Federal
renovation project.
I want to take this opportunity to thank the GSA
Administrator and Members of Congress for their
unwavering support. I also want to commend the
contributions of each OIG employee to our achievements
during the past 6 months.




W1LLIAM R. BARTON
Inspector General


October 31, 1992
               Summary of OIG Performance

                      Total Financial Recommendations                     $113,790,308
OIG Accomplishments
                      • Recommendations That Funds Be
                        Put to Better Use                                 $110,240,547

                      • Questioned Costs                                    $3,549,761

                      Audit Reports Issued                                      329

                      Investigative Referrals                                   176




                      Savings Achieved (Management Agreements
Results Attained      and Recoveries)                                    $141,217,940

                      Indictments and Informations                               24

                      Successful Criminal Prosecutions                            17

                      Civil Settlements/Judgments                                 15

                      Contractors Suspended/Debarred                             32

                      Employee Actions Taken                                      17




                                                            Office of Inspector General iii
                               Fiscal Year 19                     Results

                                    During Fiscal Year 1992, OIG activities resulted in:

                                    ..   660 audit reports.

                                    ..   38 implementation reviews of internal audit reports.

                                    ..   Over $288 million in recommendations that funds be put to better
                                         use and questioned costs.

                                    ..   Management decisions to put over $298 million in funds to better
                                         use based on this fiscal year and previous years.

                                    ..   Management decisions to recover funds, negotiated and court-
                                         ordered recoveries, and investigative recoveries of $46.6 million.

                                    ..   410 new investigations opened and 556 cases closed.

                                    ..   26 case referrals (53 subjects) accepted for criminal prosecution
                                         and 10 case referrals (21 subjects) accepted for civil litigation.

                                    •    39 criminal indictments/informations and 33 successful
                                         prosecutions on criminal matters referred.

                                    ..   Civil complaints against 5 individuals and 20 civil settlements or
                                         judgments.

                                    •    4 referrals to other Federal and State entities for further
                                         investigation.

                                    •    39 personnel actions against GSA employees.

                                    •    36 contractor suspensions and 40 contractor debarments.

                                    ..   651 legislative matters and 221 regulations and directives
                                         reviewed.

                                    ..   156 Hotline calls and letters, 12 GAO referrals, and 25 other
                                         agency referrals.




iv   Semiannual Report To The Congress
           Overview And Focus On OIG Activities

                    This report, submitted pursuant to the Inspector General Act oj 1978, as
                    amended, chronicles the activities oj the General Services
                    Administration's Office oJInspector General. It is the twenty-eighth
                    Report to the Congress since the appointment oJ GSA's first Inspector
                    General.


Overview            Procurement Activities
                    Significant OIG audits and investigations resulted in:

                    ..   Civil fraud settlement agreements resulting in over $11 million in
                         recoveries.

                    ..   Successful prosecution of a company director for submitting a
                         forged bid bond.

                    "    Conviction of a tool company official for making false statements to
                         the Government.

                    .,   Revision of a systemic control weakness in processing refunds for
                         unused travel tickets.

                    "    A senior GSA official pleading guilty to accepting gratuities.

                    ..   Successful proceeding under the Program Fraud Civil Remedies
                         Act to recover funds and an administrative recovery for costs
                         incurred by the OIG pursuant to investigation.

                    "    Conviction of a service garage repair official for offering a bribe.

                    Agency Operations
                    In a series of internal reviews, we advised management of the need to:

                    .,   Report an Antideficiency Act violation for the funding of a major
                         Federal renovation project.

                    ..   Ensure a new payroll system represents the efficient and
                         economical use of ADP resources.

                    ..   Recover $163,990 for overpayment and undelivered services, and
                         perform required lease inspections.

                    ..   Strengthen controls over cash receipts from surplus personal
                         property sales.

                    ..   Develop a strategy for addressing procurement workload concerns.




                                                                    Office of Inspector General v
               Overview And Focus On OIG Activities

                                  Prevention Activities
                                  OIG prevention activities included:

                                  •    Preaward reviews of 215 contracts with an estimated value of
                                       $1.2 billion.

                                  •    Integrity awareness briefings of 422 GSA employees.

                                  •    Advisory reviews of 21 lease proposals aimed at heading off
                                       potential problems.

                                  The OIG continues to focus on previously identified problem areas
Focus                             within the Agency.

                                  Our interdisciplinary approach to fraud cases has proven particularly
                                  beneficial to our efforts to ensure the integrity of the procurement
                                  process. This period, we achieved agreements with Federal suppliers to
                                  pay more than $11 million to settle their civil liability. We also had a
                                  successful case under the Program Fraud Civil Remedies Act.

                                  The preparation of consolidated summary reports, an initiative we
                                  started a few years ago, has been well received by Agency management.
                                  In June, we issued our third Consolidated Report, which included all
                                  audits accomplished in Public Buildings Service, Federal Supply
                                  Service, Information Resources Management Service, the Office of the
                                  Chief Financial Officer, and the Office of Administration. This report
                                  provides senior managers with information about broad concerns, and
                                  compares recent findings and observations with similar audit work
                                  completed in the previous fiscal year. The report outlines issues that
                                  may be further explored in the Agency's end-of-year assessments for
                                  the Federal Managers' Financial Integrity Act. In response to our report,
                                  Agency management formed task forces to study the Public Buildings
                                  Service leasing program and the GSA Multiple Award Schedule
                                  program for improvements, and agreed to perform a management
                                  control review of Public Buildings Service technical evaluation
                                  procedures.

                                  We are continuing to review GSA's competitive bid contract process to
                                  detect whether collusive bidrigging activity is present in contracting
                                  programs. This period, we initiated a review of GSA's storage, handling,
                                  transportation, and disposal of hazardous materials and commodities
                                  to ensure contractor and Agency compliance with existing
                                  environmental laws and regulations.

                                 We continued our emphasis on training the OIG staff in the theory and
                                 practice of Total Quality Management. Several initiatives have been
                                 implemented within the OIG as a result of senior management's
                                 support, interest, and involvement. Based upon the results of an
                                 internal employee survey, this period we formed teams to address



vi Semiannual Report To The Congress
Overview And Focus On OIG Activities

         internal operational and administrative policies and procedures. In
         addition, we are continuing our work to study several areas, including
         employee recognition, internal communications, and employee
         performance standards.

        During this period, we continued an audit involving the evaluation of
        GSA procurement personnel development. This project stemmed from
        our review of Federal Supply Service and Information Resources
        Management Service contract workload measurement practices, during
        which contracting personnel expressed concerns regarding their
        training. To assist the Agency in improving its ability to more effectively
        negotiate and award contracts, we examined the backgrounds of GSA's
        procurement personnel in the Federal Supply Service and the
        Information Resources Management Service, as well as the Public
        Buildings Service, and explored what steps have been taken and what
        further steps are available to more effectively recruit and develop
        procurement speCialists. The audit, which is nearly complete, assesses
        the poliCies and procedures employed for upgrading and maintaining
        qualified Agency contracting personnel; the recruitment, training, and
        developmental practices used to further enhance its procurement staff;
        and the management actions taken to strengthen GSA's contracting
        workforce.

        In addition to the areas outlined above, we are continuing efforts
        highlighted in previous Reports to the Congress. We are working with
        the Agency to fulfill our responsibility to ensure the annual audit of the
        financial statements, as mandated by the Chief Financial Officers Act.
        Work is continuing on our audits of the FTS2000 billings and
        payments. In addition, we plan to direct our attention to the Public
        Buildings Service leasing process and contract awards, and related
        administrative activities. This will involve extensive pre award pricing
        and postaward contract reviews. We will examine the Federal Supply
        Service contracting and costing actions associated with inventory
        stocking operations, and also evaluate accountability over the vehicle
        fleet operations.

        We are very pleased with our results during this reporting period. As
        the initiatives started and already in progress during this period are
        completed, we expect to provide the Agency with valuable insights into
        ways to improve operations and conserve scarce resources.




                                                     Office of Inspector General vii
 Table of Contents

                                                                           Page

Overview and Focus on OIG Activities .............................. v

Organization, Staffing. and Budget ................................. l

Procurement Activities .................................................... 3

Agency Operations .......................................................... 7

Prevention Activities ...................................................... 12

Review of Legislation and Regulations ........................... 15

Statistical Summary of OIG Accomplishments .............. 17



Appendices

Appendix I-Significant Audits from Prior Reports .......... 25

Appendix II-Audit Report Register ................................. 27

Appendix III-Delinquent Debts ...................................... 54

Appendix IV-Reporting Requirements ........................... 55




                                                 Office of Inspector General ix
               Organization, Staffing, and Budget

                      Pursuant to the Inspector General Act Qf 1978, an Office oj Inspector
                      General was established within the General Services Administration on
                      October 1, 1978. As currently configured, the OIG consists oj six units
                      thatJunction cooperatively to peljorm the missions legislated by the
                      Congress.

                      The OIG utilizes a functional organizational structure to provide
Organization          nationwide coverage of GSA programs and activities. It consists of:

                      ..   The Office of Audits. a multidisciplinary unit staffed with
                           financial and technical experts who provide comprehensive
                           coverage of GSA operations (internal or management audits) as
                           well as reviews of GSA contractors (external or contract audits).
                           Headquarters directs and coordinates the audit program, which is
                           performed by 14 field audit offices.

                      ..   The Office of Investigations, an investigative unit that manages a
                           nationwide program to prevent and detect illegal and/or improper
                           activities involving GSA programs, operations, and personnel.
                           Headquarters coordinates and oversees the investigative activity of
                           12 field investigations offices.

                      ..   The Office of Counsel to the Inspector General, an in-house
                           legal staff that provides legal advice and assistance to all OIG
                           components. These attorneys also represent the OIG in connection
                           with litigation arising out of or affecting OIG operations and
                           prepare OIG comments on proposed legislation.

                      ..   The Office of Administration. a centralized unit that provides
                           information systems support, handles budgetary, administrative,
                           and personnel matters, and formulates OIG comments on
                           proposed regulations and GSA policy issuances.

                      ..   The Office of Quality Management, an in-house staff that
                           promotes and coordinates the total quality process within all OIG
                           components, and coordinates quality improvement initiatives with
                           other Federal entities.

                      ..   The Internal Evaluation Staff, an analytical unit reporting
                           directly to the Inspector General that plans and directs an in-
                           house assessment program, including field office appraisals and
                           sensitive reviews of OIG operations.

                      The OIG is headquartered in Washington, DC, at GSA's Central Office
Office Locations      building. Field audit or investigations offices are maintained in Boston,
                      New York, Philadelphia, Atlanta, Chicago, Kansas City, Fort Worth, San
                      Francisco, Auburn. Cleveland, Los Angeles, and Washington, DC.




                                                                   Office of Inspector General   1
                     Organization, Staffing, and Bu                               et

Staffing and Budget                The OIG completed Fiscal Year 1992 with a total on-board strength of
                                   432 full-time employees. Permanent staffing included 227 auditors,
                                   90 investigators, and 8 attorneys.

                                   The OIG's approved Fiscal Year 1992 budget was approximately
                                   $36.5 million.




2   Semiannual Report To The Congress
                   ocurement Activities

                   GSA is responsible for providing space for almost 1 million Federal
                   employees. GSA. therefore, acquires buildings and sites, constructs
                  facilities, and leases space as well as contracts jor repairs, alterations,
                   maintenance, and protection oj Government-controlled space. GSA also
                   operates a Government-wide service and supply system. To meet the
                   needs of customer agencies, GSA contracts for billions qI dollars worth oj
                  equipment, supplies, materials, and services each year. We review these
                  procurements on both a preaward and postaward basis to ensure that
                   the taxpayers' interests are adequately protected. We review
                   approximately 500 oj GSA's estimated 6,700 contracts each year.


Significant OIG   $4.5 Million Civil Settlement
                  A safe manufacturer entered into a civil settlement agreement with the
Accomplishments   Government to pay $4.5 million to settle its potential civil liability
                  under the False Claims Act. The firm had multiple award schedule
                  contracts for Fiscal Years 1984 through 1987. The OIG determined that
                  during the negotiations of the contracts, the company included inflated
                  costs for materials and omitted information regarding labor and
                  overhead cost savings attributable to newly-installed robotics. GSA
                  contracting officers relied upon the information prOvided by the
                  company and, as a result, awarded the contracts at higher prices than
                  would have been negotiatcd had there been proper disclosure.


                  Fraud Conviction
                  The director of a maintenance company was sentenced August 7 in
                  U.S. District Court after pleading guilty to wire fraud for submitting a
                  forged bid bond. Federal regulations require that contractors for
                  supplies and services secure bid bonds when submitting bids in
                  response to a solicitation. These bonds are normally obtained from a
                  bonding surety firm and guarantee the bidder's price. In the event that
                  the bidder rescinds his bid, the guarantee will provide adequate
                  compensation to cover any Government losses arising from the bidder's
                  action.

                  The investigation also revealed that the company director conspired
                  with the issuer of the bonds to obtain and distribute fraudulent bonds
                  to other Government agenCies. Fraudulent bid bonds valued at over
                  $505,000 were submitted to Government agenCies.

                  The director was placed on 3 years probation, ordered to perform
                  300 hours of community service, and required to pay a $30,000 fine
                  plus a $100 speCial assessment. The investigation was conducted by
                  the OIG, the Federal Bureau ofInvestigation, and the New York City
                  Department of Investigation.




                                                                Office of Inspector General   3
                                Procurement Activities

                                   $6,573,000 in Civil Settlements
                                   In addition to the civil settlement noted above, the Government entered
                                   into five settlement agreements, totaling $6,573,000, with Federal
                                   suppliers.

                                   Under the terms of four agreements, an ADP furniture and accessories
                                   firm, a computer firm, a construction contractor, and another
                                   computer firm agreed to pay the Government $3,606,000, $1,242,000,
                                   $810,000, and $475,000, respectively, to settle their potential civil
                                   liability under the False Claims Act.

                                   The OIG determined that the first two companies failed to fully disclose
                                   pricing and discount information during GSA contract negotiations.
                                   The third company violated the Act when the contractor charged most
                                   of its entire anticipated overhead, profit, and other costs at the
                                   beginning of the project rather than distributing these costs over the
                                   entire performance period as required. The OIG determined that the
                                   fourth company overstated research and development costs on a
                                   contract. This caused GSA and other agencies to pay higher prices for
                                   overhead costs on subsequent contracts.

                                   Finally, the fifth agreement provided that a printing and photographic
                                   supplier pay the Government $440,000 to settle its potential civil
                                   liability. OIG reviews disclosed that the company did not provide
                                   correct pricing information during contract negotiations and failed to
                                   extend a price reduction to the Government following award of the
                                   contract.

                                   Conspiracy Conviction
                                   In response to a GSA official's allegations, the OIG investigated a
                                   company which contracted with the Government to manufacture tools
                                   in accordance with GSA requirements. The contracts were valued at
                                   $674,500. The contracts required the firm to test the tools prior to
                                   shipment and to certifY that materials met all requirements. The
                                   investigation revealed that the company did not perform the required
                                   pre-shipment tests and was aware that the tools shipped were not in
                                   compliance with contract speCifications.

                                   In July, the director of manufacturing pled guilty to submitting false
                                   statements to the Government. SentenCing has not been scheduled.
                                   Previously, the tool company was fined $200,000 and prohibited from
                                   conducting business with the Government after pleading guilty to
                                   conspiracy to submit false claims.

                                   Contract Clause Revision
                                   A Travel Management Center is a commercial travel agency which,
                                   through a contract with GSA, provides services to Federal Government



4   Semiannual Report To The Congress
Procurement Activities

 travelers in a particular geographical area. Each Center makes
 Government airline, rental car, and hotel reservations, issues airline
 tickets, and provides reports on customer agency activities.

 A review of one Travel Management Center identified that it owed
 Federal agencies over $170,000 for unused airline tickets that had been
 returned by Federal travelers. Although the Center was in compliance
 with the contract terms, our review revealed that a weakness existed in
 a standard contract clause.

 The flawed contract clause based refunds for unused tickets upon the
 receipt of a standard form and not upon the return of the unused
 ticket. As a result, when the Center did not receive a standard form, it
 retained Government funds.

 Correction of this systemic control weakness could result in significant
 savings as refunds could be sought in the more than 150 Travel
 Management Centers existing nationwide.

 The April 8, 1992 report recommended to the Commissioner, Federal
 Supply Service, that the Travel Management Division:

 •   Revise the standard clause to provide for processing refunds based
     upon the return of the unused tickets.

 •   Request payment for outstanding refunds from all Travel
     Management Centers.

 Responsive action plans were provided for implementing the report
 recommendations.

 High Ranking GSA Executive Pleads Guilty
 On August 3, 1992, a senior GSA official pled guilty to charges of
 conspiring to and receiving gratuities from a Government contractor. In
 addition, on August 10, the same official entered into a $20,000 civil
 settlement of claims that he failed to report meals, entertainment, and
 lodging he had received from a Government contractor.

 On September 14, 1992, the Government contractor involved with
 paying improper gratuities to the GSA official agreed to pay
 $356,202.10 for administrative costs incurred by the OIG in
 investigating the allegations.

 Program Fraud Civil Remedies Act
 On July 17, 1992, a laundry soap company and its owner agreed in a
 settlement to pay the Government $8,000 under the Program Fraud
 Civil Remedies Act. Under the Act, Federal agenCies can institute
 administrative proceedings to recover damages and penalties from a



                                               Office of Inspector General   5
                                Procurement Activities

                                   person or entity that presents false claims or makes false statements to
                                   the Government. Agencies can recover twice the amount of damages to
                                   the Government and penalties of up to $5,000 per violation.

                                   The OIG initiated actions under the Act after a GSA quality assurance
                                   specialist reported that the soap company may have submitted false
                                   laboratory reports. Under contract terms, the company was to ensure
                                   that quality control tests were performed on each lot of laundry soap
                                   before shipment to a GSA depot. We found that the manufacturer
                                   shipped soap which had not been tested, and prepared and submitted
                                   false test certifications for these products.

                                   Bribery Conviction
                                   On September 8, 1992, the president of a vehicle repair garage pled
                                   guilty in U.S. District Court to bribery charges. Sentencing is
                                   scheduled for December 1992.

                                   The conviction resulted from an OIG investigation in which a GSA
                                   motor vehicle repair inspector alleged that the president offered him a
                                   bribe in exchange for directing damaged Government vehicles to his
                                   firm for repairs. OIG special agents subsequently monitored meetings
                                   between the president and the motor vehicle inspector. During these
                                   meetings, the bribe scheme was discussed and the president paid the
                                   inspector money in return for Government contracts for repair of the
                                   damaged vehicles. The president of the firm was consequently arrested
                                   by OIG agents and charged in U.S. District Court for violation of
                                   bribery laws.




6   Semiannual Report To The Congress
                  Agency Operations

                  GSA is a central management agency that sets Federal policy in such
                  areas as Federal procurement, real property management, and
                  telecommunications. GSA also manages diversified Government
                  operations involving buildings management, supply facilities, real and
                  personal property disposals and sales, data processing, and motor
                  vehicle and travel management. In addition, GSA manages over
                  115 accounting funds and provides cross-servicing supportjor client
                  agencies. Our audits examine the efficiency, effectiveness, and integrity
                  of GSA programs and operations and result in reports to management
                  that often include recommendations for improvement. This period, the
                  OIG performed 102 internal audits on Agency program areas.


Significant OIG   Funding of Building Renovation Project
                  During this period, an OIG review of the funding for a major Federal
Accomplishments   building renovation project detennined that the Antideficiency Act had
                  bcen violated. The violation occurred because as of April 30, 1990, the
                  Agency had incurred obligations above amounts authorized by the
                  Congress to accomplish the renovation work. The difference between
                  the obligated and authorized amounts represented renovation costs
                  that were not properly charged to the project.

                  Several renovation work items charged to non-project funds were used
                  for repairs and alterations, including window replacement on two sides
                  of the building and asbestos abatement necessary to complete the
                  renovation work. We also detennined that to prevent delaying the
                  award of the base construction contract, and prior to receiving funding
                  authority from the agency requesting the work, agency funds were
                  obligated for reimbursable work. This action constituted another
                  violation of the Antideficiency Act; however, the charges for this work
                  were subsequently properly classified.

                  The May 1992 report recommended that the Regional Administrator:

                  ..   Report the Antideficiency Act violation to the Administrator so that
                       the required actions with respect to violations of the Antideficiency
                       Act can be taken.

                  ..   Take action to ensure that the region complies with the laws,
                       regulations, and poliCies governing the funding of future
                       prospectus projects.

                  Agency management agreed to report an Antideflciency Act violation in
                  the amount of approximately $1.1 million.

                  New Payroll System
                  Previous audit reports have indicated weaknesses in the automated
                  systems development process within GSA. In its Fiscal Year 1990




                                                                Office of Inspector General   7
                                   Agency Operations

                                   Federal Managers' Financial Integrity Act Assurance Letter, the Agency
                                   identified the oversight of major systems development projects as a
                                   high risk area.

                                   This period our office issued an audit report that evaluated the
                                   development of GSA's new payroll system. The National Payroll Center
                                   prepares biweekly payrolls for approximately 32,000 employees in GSA
                                   and 52 small agencies and commissions. GSA officials have approved
                                   the development of a new system on personal computers using local
                                   area networks rather than using existing mainframe computer
                                   technology .

                                   The report disclosed that improvements were necessary to develop the
                                   payroll system according to GSA's requirements. We found information
                                   regarding the new payroll system was not adequate to clearly justifY
                                   development of the system. The mission analysis developed in the
                                   1970s was well documented, but it had not been updated. Also, the
                                   feasibility study identified alternative approaches and presented
                                   summary evaluations; however, information to support the evaluations
                                   and conclusions was not sufficient.

                                   The project has experienced cost estimate increases and schedule
                                   delays. Nevertheless, we did not find information to show that as new
                                   estimates and schedules were known, the Agency evaluated whether
                                   continuation of the new system represented the most economical and
                                   efficient application of its automated data processing resources.
                                   Finally, system development oversight needed strengthening. The
                                   project was allowed to continue without reevaluation as
                                   implementation schedules slipped and cost estimates increased.

                                   The June report recommended that the Commissioner, Information
                                   Resources Management Service:

                                   •    Ensure that the payroll system development project represents an
                                        efficient and economical application of GSA ADP resources before
                                        the Agency proceeds with the payroll system hardware
                                        procurement.

                                   The Commissioner agreed with the recommendation in the report. The
                                   audit is still in the resolution process.

                                   Lease Administration
                                   As part of its ongoing assessment of GSA's leasing program, the OIG
                                   evaluated the award and administration of a lease for apprOximately
                                   49,705 square feet of space with an annual rental of $1,109,972.

                                   The review showed that the space is of good quality and the tenants are
                                   generally satisfied with the space and services received. However, lease
                                   administration needed improvement. We found that a supplemental


8   Semiannual Report To The Congress
Agency Operations

lease amendment was negotiated for additional heating, ventilation,
and air conditioning equipment even though the basic lease already
provided for much of this equipment, As a result, the Government
overpaid $49,615. Also, a comparison between the physical inventory of
electrical and telephone outlets to the quantity specified in the lease
was not accomplished. We estimated that the Government is entitled to
credits worth $95,625 for undelivered quantities. Finally, postaward
inspections were not done on the space, so there was no assurance that
the lessor complied with all lease provisions. We found that the
Government paid the lessor $18,750 to install a floor in the computer
room, but the floor had not been installed.

The July report recommended to the Regional Administrator that the
contracting officer:

..   Recover $49,615 in overpayment for the heating, ventilation, and
     air conditioning equipment.

"    Recover $95,625 for undelivered electrical and telephone services.

"    Collect $18,750 for improvements not installed.

..   Perform postaward lease inspections as required.

The Regional Administrator agreed with the recommendations in the
report. The audit is still in the resolution process.

Controls Over Cash Receipts
At the request of GSA's Administrator, the OIG completed an evaluation
of controls over cash receipts from surplus personal property sales in
nine regions. For Fiscal Year 1991, proceeds from these sales exceeded
$155 million.

The review concluded that improved controls were needed in several
areas. We found minimal separation of duties for collecting and
depositing funds, and recording the sales transactions in the computer
reporting system. There were delays in making bank deposits and
transmitting sales data and related deposit documents to the GSA
finance center.

We found that existing sales procedures did not provide specific
requirements for documenting returned property. Finally, an analysis
of each sale was not performed to account for the disposition of each
item and the proceeds received. These conditions increase the
opportunities for errors and improper diversion of assets, and delay
reimbursements to client agencies.




                                             Office of Inspector General   9
                                   Agency Operations

                                   The September 15, 1992 report made several recommendations to the
                                   Commissioner, Federal Supply Service. These included
                                   recommendations to:

                                   "     Provide for separation of duties in sales offices and supervisory
                                         reviews.

                                   "     Implement current procedures requiring that checks be deposited
                                         the first business day following receipt.

                                   •     Develop procedures addressing responsibilities for approving and
                                         processing sales returns.

                                   "     Require the proper reconciliation of sales data.

                                   The Commissioner generally agreed with the recommendations in the
                                   report. He outlined several steps taken or planned to strengthen
                                   internal controls for each critical aspect of the program. The audit is
                                   still in the resolution process.

                                   Contract Workload Management
                                   This period the OIG performed a programmatic review on how
                                   contracting functions balance contract workloads and resources. The
                                   review was performed in two headquarters activities and three regional
                                   commodity centers. Because of recurring concerns in the contracting
                                   process within the Federal Supply Service and Information Resources
                                   Management Service, we evaluated the contract workload management
                                   of GSA's multi-billion dollar procurement programs.

                                   The review disclosed that the Federal Supply Service and Information
                                   Resources Management Service lacked comprehensive information
                                   systems to provide necessary data to help determine whether personnel
                                   and other resources are properly allocated to meet procurement
                                   workloads and priorities. Available information and review results
                                   indicated that some procurement personnel may be overburdened and
                                   could not perform their duties at optimum effectiveness.

                                   Also, individual procurement officials in the Multiple Award Schedule
                                   program believed that they did not have sufficient time to properly
                                   conduct procurements. A significant number noted that more time was
                                   needed for them to adequately prepare for negotiations. Employees saw
                                   a need for increased job-specific training and formal reference
                                   materials. Many employees noted that other tasks took time away from
                                   their key responsibilities of planning and negotiating contracts.




10   Semiannual Report To The Congress
Agency               erations

In the July 10, 1992 report, we recommended that the Associate
Administrator for Acquisition Policy coordinate with the Commissioners
of the Federal Supply Service and Information Resources Management
Service to develop a strategy for addressing identified issues, giving
initial attention to the Multiple Award Schedule program concerns.

The Associate Administrator agreed with the recommendation and
expeditiously pursued the establishment of an inter-service working
group, with the Federal Supply Service and Information Resources
Management Service, to consider procurement issues of common
concern. The audit is still in the resolution process.




                                          Office of Inspector General   11
                                 Prevention Activities

                                   In addition to detecting problems in GSA operations, the OIG is
                                   responsibleJor initiating actions to preventJraud, waste, and abuse and
                                   to promote economy and efficiency.

                                   The OIG's preaward audit program provides information to contracting
Significant Preaward               officers for use in negotiating contracts. The pre-decisional. advisory
Audits                             nature of pre award audits distinguishes them from other audits. This
                                   period, the OIG performed preaward audits of 215 contracts with an
                                   estimated value of $1.2 billion. The audit reports contained over
                                   $106 million in financial recommendations.

                                   Multiple Award Schedule Contracts
                                   This period, four of the most significant audits involving multiple award
                                   schedule contracts had estimated Government-wide sales totaling over
                                   $97.7 million. Based on our findings, the auditors recommended that
                                   over $13.6 million (nearly 14 percent) in funds be put to better use.

                                   The OIG evaluated discount schedule and marketing data submitted in
                                   response to GSA's solicitations: one for power distribution equipment.
                                   two for carpets and accessories, and one for micro-computers and
                                   software. One audit advised the contracting officer that the firm did not
                                   submit current, accurate, or complete sales data; granted commercial
                                   and other Government customers discounts greater than those
                                   disclosed in the proposal; and had inadequate controls over billing and
                                   reporting. Another audit advised the contracting officer that the firm
                                   offered higher discounts to its commercial customers. Another audit
                                   advised the contracting officer that the company did not properly
                                   justifY a discount given to its commercial customers nor did it disclose
                                   all discounts offered. Also, the firm understated the estimated volume
                                   of business. Finally, one report advised the contracting officer that
                                   company officials granted higher discounts to commercial customers
                                   than those offered to GSA, the commercial price list was not current,
                                   and the offer did not include prompt payment discounts offered to the
                                   firm's customers.

                                   Other Contracts
                                   The OIG performed three significant audits involving two termination
                                   settlement proposals and a lease alteration proposal. The three audits
                                   reviewed proposed amounts of over $10.5 million, and recommended
                                   adjustments of over $9.3 million.

                                   •     The OIG evaluated a settlement proposal submitted by a
                                         subcontractor in response to claims for additional work and
                                         termination expenses of a contract for the deSign, manufacture,
                                         and installation of an integrated material handling system. The
                                         audit report advised the contracting officer that the entire dollar




12   Semiannual Report To The Congress
                      Prevention Activities

                           amount contained in the firm's proposal was unsupported.
                           Limitations in the firm's accounting system prevented audit
                           verification of the claimed amount.

                      ..   The OIG audited another settlement proposal submitted in
                           response to the termination of a contract for the design,
                           manufacture, and installation of an integrated material handling
                           system. The report advised the contracting officer that amounts
                           contained in the firm's proposal were overstated, unallowable, or
                           inaccurate. Based on these findings, the auditors recommended
                           adjustments in the following categories: equipment, software fees,
                           and labor costs.

                      ..   The OIG evaluated a lease alteration proposal submitted for
                           mechanical alteration work on a Government building. The audit
                           report advised the contracting officer that certain proposed costs
                           for materials, overhead, profit, and equipment were overstated and
                           unsupported. Based on these findings, the auditors recommended
                           reductions to the proposed amount.

                      Integrity Awareness Briefings comprise the ~iG's primary vehicle for
Integrity Awareness   educating employees on their responsibilities for the prevention of fraud
                      and abuse, and for reinforcing employees' roles in helping to ensure the
                      integrity of Agency operations. Several significant OIG
                      accomplishments reported this period resulted from allegations
                      received from GSA employees.

                      This period, we presented 15 briefings which were attended by
                      422 Central Office and regional employees. These briefings explain the
                      statutory mission of the OIG and the methods available for reporting
                      suspected instances of wrongdoing. In addition, through case studies
                      and slides, the briefings expose GSA employees to actual instances of
                      fraud in GSA and other Federal agencies.

                      In addition, OIG representatives spoke at the State Agency for Surplus
                      Property National Convention and discussed the mission of the OIG
                      and how it relates to the surplus property program.

                      The ~iG's program for reviewing leases prior to award provides front-
Advisory Lease        end assurance that GSA is adhering to regulations and procedures
Reviews               before awarding selected leases exceeding established thresholds.
                      These reviews, although advisory in nature and only selectively
                      performed due to workload constraints, promote opportunities for
                      economy and efficiency in the leasing area, and the avoidance of
                      problems before they occur.




                                                                  Office of Inspector General   13
                                  Prevention Activities

                                   The program achieved the following results during the reporting period:

                                           Lease proposals submitted for review ................... 67
                                           Lease proposals reviewed ..................................... 21
                                           Lease proposals with deficiencies ......................... 12
                                           Lease proposals with no deficiencies ...................... 9

                                   Deficiencies identified through OIG advisory lease reviews related to
                                   competition unduly restricted; independent Government estimate not
                                   prepared for the build out costs to determine if the Government was
                                   getting a fair and reasonable price for alterations; proposed rental rates
                                   not fair and reasonable nor responsive to the requirements of the
                                   solicitation for offers; questionable overtime utility rates which could
                                   result in a major cost increase for the Government; incomplete lease
                                   files; and inadequate or missing file documentation.

                                   The Hotline is another part of our prevention program. It provides an
Hotline                            avenue for concerned employees to report suspected wrongdoing.
                                   Hotline posters located in GSA-controlled buildings, as well as Hotline
                                   brochures, encourage employees to use the Hotline.

                                   During this reporting period, we received 81 Hotline calls and letters.
                                   Of these, 70 complaints (or 86 percent) warranted further action. We
                                   also received 6 referrals from GAO and 18 referrals from other
                                   agencies; 15 of these referrals required further action.

                                   The OIG performs independent reviews of implementation actions, on a
Implementation                     test basis, to ensure that management's corrective actions are being
Reviews                            accomplished according to established milestones. This period, the OIG
                                   performed 25 implementation reviews. In 22 of these cases,
                                   management was successfully implementing the recommendations. In
                                   the other 3 instances, recommendations were not being implemented
                                   in accordance with the established action plans; we advised
                                   management of the need to revise the action plans.

                                   The Chief Financial Officers Act of 1990 requires the OIG to ensure
Financial Statements               that an audit of the Agency's consolidated financial statements is
Audit                              conducted annually. To fulfill our responsibility, we administered the
                                   contract whereby an independent certified public accounting firm
                                   performed the audit on the Agency's Fiscal Years 1990 and 1991
                                   financial statements.

                                   The June audit report showed that the Agency's finanCial statements
                                   present fairly, in all material aspects, the financial position of GSA as of
                                   September 30, 1990 and 1991. Although the report on the Agency's
                                   internal control structure did not disclose any control weaknesses, two
                                   items were conSidered reportable conditions. These involved a need to
                                   follow procedures for substantiating inventories of supplies for sale to
                                   Federal agencies and to reconcile unbilled accounts receivable.

14   Semiannual Report To The Congress
eview of Legislation and Regulations

        Pursuant to the Inspector General Act oj 1978, the OIG is required to
        review existing and proposed legislation and regulations to determine
        their impact on the economy and efficiency oJ the Agency's programs and
        operations and on the prevention and detection ojJraud and abuse.

       During this period, the OIG reviewed 406 legislative matters and
       110 proposed regulations and directives. The OIG provided significant
       comments on the following items:

        "    S. 2619, The Multiple Award Schedule Program Reform Act of
             1992. We opposed this bill because it would eliminate
             requirements mandating that contractors disclose the full range of
             discounts offered to commercial customers for multiple award
             schedule products. This would make it more difficult for
             contracting officers to negotiate fair prices for the Government. The
             bill would require that, for negotiating purposes, the contracting
             officer must view the Government as comparable to an "end-user"
             purchaser only, rather than as comparable to any customer
             obtaining more favorable discounts from contractors. We also
             warned that the bill would result in immensely increased direct
             costs-estimated at more than $600 million per year-for no added
             value to the Government and would result in a far less efficient
             and less economical method of procurement.

       "     H.R. 3161, The Federal Property and Administrative Services
             Authorization Act of 1992. We opposed this bill on several
             grounds. First, the proposed bill would eliminate the Government's
             right to inquire about what percentage of a potential government
             contractor's business is conducted with commercial customers,
             thus hampering the Government's ability to determine whether
             there is a "commercial price" for a particular product or service or
             whether the Government should seek cost or pricing data from the
             contractor. The lack of cost or pricing information for products or
             services for which there may not really be a commercial market
             could lead the Government to agree to pay higher prices than it
             otherwise would agree to pay. Also, the bill would allow the
             contractor to decide which customers are most comparable to the
             Government, and to limit its disclosures regarding discounts and
             pricing to such "comparable" customers only. This would change
             the current practice of requiring a contractor to make full
             disclosure of its pricing and discount practices so that the
             Government and the contractor can negotiate what terms and
             conditions are most suitable for a particular procurement.

        ..   FSS Acquisition Letter, Administration of Federal Supply
             Schedule Orders. We agreed with the proposal to delegate to
             ordering offices the authority to resolve disputes with federal
             supply schedule contractors concerning individual orders.
             However, we disagreed with the proposed requirement to delegate
             to ordering offices the authority to resolve disputes concerning


                                                     Office of Inspector General   15
               Review of Legislation and Regulations

                                       violations of the schedule contracts' mandatory use provisions.
                                       Questions on mandatory use would generally be raised by
                                       contractors, and GSA contracting personnel are in a position to
                                       see that the facts receive a fair and impartial review. Also, we
                                       believe GSA management would benefit from monitoring the
                                       effectiveness of the contract program by knowing the number and
                                       types of questions being raised concerning agency use of the
                                       contracts.




16 Semiannual Report To The Congress
      Statistical Summary of 0                           Accomplishments

                             Audit Reports Issued
                             The OIG issued 329 audit reports, including 2 audits performed by the
                             OIG that were issued to other agencies and 18 audits performed for the
                             OIG by another agency. The 329 reports contained financial
                             recommendations totaling $113,790,308, including $110,240,547 in
                             recommendations that funds be put to better use and $3,549,761 in
                             questioned costs. Due to GSA's mission of procuring supplies and
                             services for the Government, most of the recommendations that funds
                             be put to better use were applicable to funds other agencies would
                             expend under GSA's Government-wide contracts.

                             Management Decisions on Audit Reports
                             Table 1 summarizes the status of the universe of audits requiring
                             management decisions during this period, as well as the status of those
                             audits as of September 30, 1992. Twelve reports more than 6 months
                             old were awaiting management decisions as of September 30, 1992; but
                             all of them were preaward audits, which are not subject to the 6 month
                             management decision requirement. Table 1 does not include 2 reports
                             issued to other agencies this period and 14 reports excluded from the
                             management decision process because they pertain to ongoing
                             investigations.


                Table 1. Management Decisions on OIG Audits
                                                           Reports with              Total
                                                No. of       Financial             Financial
                                               Reports   Recommendations       Recommendations

For which no management decision
had been made as of 4/1/92
  Less than 6 months old                        114              90               $95,880,717
  More than 6 months old                         23              22                13,597,530
Reports issued this period                      327             193               113,790,308
TOTAL                                           464             305             $223,268,555
For which a management decision
was made during the reporting
period
  Issued prior periods                          125            100               $103,248,510
  Issued current period                         198            102                 40,253,357
TOTAL                                           323            202              $143,501,867
For which no management decision
had been made as of9/30/92
  Less than 6 months old                        129              91               $ 73,536,951
  More than 6 months old                         12            ---12                 6,229,737
TOTAL                                           141            103                $79,766,688



                                                                       Office of Inspector General   17
        Statistical               mmary of OIG Accomplishments

                                   Management Decisions on Audit Reports With Financial
                                   Recommendations
                                  Tables 2 and 3 present the audits identified in Table 1 as containing
                                  financial recommendations by category (funds to be put to better use or
                                  questioned costs). Some of the reports contained recommendations
                                  that funds be put to better use as well as questioned costs, and these
                                  reports are therefore included in both Tables 2 and 3.


                Table 2. Management Decisions on OIG Audits with
                Recommendations that Funds be Put To Better Use
                                                             No. of                 Financial
                                                            Reports             Recommendations

 For which no management decision had
 been made as of 4/1/92
    Less than 6 months old                                      81                  $ 95,805,156
    More than 6 months old                                      15                     5,526,917
Reports issued this period                                     179                   110,240,547
TOTAL                                                         275                 $211,572,620
   For which a management decision was
   made during the reporting period
     Recommendations agreed to by
     management based on proposed
     • management action                                                           $116,524,952
     • legislative action
     Recommendations not agreed to
     by management                                                                    16,285,628
TOTAL                                                          178                $132,810,580 *
  For which no management decision had
  been made as of 9/30/92
     Less than 6 months old                                     85                  $ 72,544,609
     More than 6 months old                                    ..l2                    6,229,737
TOTAL                                                           97                  $78,774,346

* Includes   $12,306 that management decided to seek that exceeded recommended amounts.




18 Semiannual Report To The Congress
        Statistical Summary of OIG Accomplishments


                       Table 3. Management Decisions on OIG
                           Audits with Questioned Costs
                                                     No. of            Questioned          Unsupported
                                                    Reports              Costs                Costs
For which no management decision
had been made as of 4/1/92
    Less than 6 months old                              9         $       75,561                  $-
    More than 6 months old                              7              8,070,613
Reports issued this period                             17              3,549,761
TOTAL                                                  33        $11,695,935                      $-

For which a management decision
was made during the reporting
period
     Disallowed costs                                             $10,181,056*                     $-
     Costs not disallowed                                             522,537
TOTAL                                                  26        $10,703,593                       $-
For which no management decision
had been made as of 9/30/92
    Less than 6 months old                              7          $     992,342                  $-
    More than 6 months old
TOTAL                                                   7          $ 992,342                      $-

* $3,280,439 of this amount was recovered in civil settlements, as reported in Table 5,


                                   Investigative Workload
                                   The OIG opened 208 investigative cases and closed 161 cases, In
                                   addition to these cases, the OIG received and evaluated 140 complaints
                                   and allegations from sources other than the Hotline that involved GSA
                                   employees and programs, Based upon our analyses of these complaints
                                   and allegations, OIG investigations were not warranted.




                                                                                   Office of Inspector General   19
         Statistical Summary of OIG Accomplishments

                                   Referrals
                                   The OIG makes criminal referrals to the Department of Justice or
                                   other authorities for prosecutive consideration and civil referrals to the
                                   Civil Division of the Department of Justice or a U.S. Attorney for
                                   litigation consideration. The OIG also makes administrative referrals to
                                   GSA officials on cases disclosing nonprosecutable wrongdoing on the
                                   part of GSA employees, contractors, or private individuals doing
                                   business with the Government.


                           Table 4. Summary of ola Referrals
               Type of Referral                               Cases                   Subjects
                 -------~-~       ...- . - ..-   ...-   --~-.--   ------------~-------~---




                Criminal                                          24                      43
                Civil                                             11                      20
                Administrative                                    58                     113
                TOTAL                                             93                     176


                                   In addition, the OIG made 2 referrals to another Federal activity for
                                   further investigation or other action and 107 referrals to GSA officials
                                   for informational purposes only.

                                   Actions on OIG Referrals
                                   Based on these and prior referrals, 12 cases (26 subjects) were
                                   accepted for criminal prosecution and 6 cases (13 subjects) were
                                   accepted for civil litigation. Criminal cases originating from OIG
                                   referrals resulted in 24 indictments/informations and 17 successful
                                   prosecutions. OIG civil referrals resulted in 3 civil fraud complaints
                                   and 15 settlements or judgments. Based on OIG administrative
                                   referrals, management debarred 25 contractors, suspended
                                   7 contractors, and took personnel action against 17 employees.




20   Semiannual Report To The Congress
          Statistical Summary of OIG Accomplishments

                                    Monetary Results
                                    Table 5 presents the amounts determined to be owed the Government
                                    as a result of criminal and civil actions. The amounts do not necessarily
                                    reflect actual monetary recoveries.

                                    In addition, the OIG identified for recovery $6,112,558 in money and/or
                                    property and $70,000 in investigative savings during the course of its
                                    investigations.


                           Table 5. Criminal and Civil Recoveries
                                                       Criminal                        Civil

            Fines and Penalties                        $252,900                 $      175,000
            Settlements or Judgments                                                11,119,883 *
            Restitutions                                  62,030
            TOTAL                                      $314,930                $11.294,883

*   This amount includes $3,280,439 reportable pursuant to Section 5(a)(8) C![the Inspector General Act as
    management decisions to disallow costs. See Table 3.




                                                                                Office of Inspector General 21
Appendices
       A end /- Significant Audits From Prior R orts

Under the Agency's audit management decision process,          software to record sales data on laptop computers, is sched-
GSA's Office of Administration, Office of Management Con-      uled for completion in October 1992.
trols and Evaluation, is responsible for tracking imple-
mentation of audit recommendations after a management          Contingency Planning for Computer Systems
decision has been reached. That office furnished the fol-
lowing status information.                                     Period First Reported: October 1, 1990 to March 31,
                                                               1991
Eight audits highlighted in prior Reports to the Congress      This review disclosed the need to improve contingency
have not been fully implemented; all are being implemented     plans for computer systems in the event of emergency sit-
in accordance with currently established milestones.           uations. The report contained one recommendation; it has
                                                               not yet been implemented.
Transportation Audit Program
                                                               This recommendation requires an annual review of com-
Period First Reported: October 1, 1991 to March 31,
                                                               puter system security documentation and a report to
1992
                                                               the head of the appropriate service of any noncompliance.
'Ibis review revealed that document controls over bills that   It is scheduled for completion by August 1993.
are sent to contractors needed strengthening. The report
contained four recommendations; two have been imple-           Relocation of Household Goods
mented.
                                                               Period First Reported: October 1, 1990 to March 31,
One of the remaining recommendations involves the rein-        1991
stitution of a quality assurance program with measurable       This review identified the need to improve the operations
performance standards for contractors, with tests of per-      of the Household Goods Traffic Management Program.
formance and follow-up action. It is scheduled for com-        The report contained five recommendations; four have
pletion by October 31, 1993. The other recommendation          been implemented.
involves implementing a control system to ensure the qual-
ity and completeness of data being provided by contrac-        The remaining recommendation involves requiring agen-
tors. It is scheduled to be implemented by November 30,        cies to submit carrier evaluation forms in a timely man-
1992.                                                          ner and establishing procedures to furnish performance
                                                               data to carriers. It is scheduled for completion in Septem-
Personal Property Sales                                        ber 1993.

Period First Reported: April 1, 1991 to September 30,
1991
                                                               Rental Payments
                                                               Period First Reported: April 1, 1990 to September 30,
This review identified the need for improved procedures
                                                               1990
and controls to process personal property sales proceeds.
The report contained two recommendations; they have            This review showed that improved controls over lease pay-
not yet been implemented.                                      ments were necessary. The report contained nine recom-
                                                               mendations; eight have been implemented.
The first recommendation requires the development of
automated procedures to process personal property sales        The remaining recommendation, which requires the res-
proceeds. It is scheduled for completion in October 1992.      olution of debits and credits for a lease, is scheduled for
The second recommendation, which involves developing           full completion in April 1993.




                                                                                          Office of Inspector General 25
       Appendix /- Significant Audits From Prior R 0

Rent Exemptions                                               processing, and mailing. The report contained one rec-
                                                              ommendation; it has not yet been implemented.
Period First Reported: April 1, 1990 to September 30,
1990                                                          The recommendation, which requires redesign of the pur-
TIlls review identified the need for better management and    chase order form, is scheduled for completion in Octo-
control of rent exemptions. The report contained eight rec-   ber 1992.
ommendations; seven have been implemented.
                                                              Multiple Award Schedule Program
The remaining recommendation requires the analysis of         Period First Reported: October 1, 1988 to March 31,
a billing cycle and correcting the errors found. Imple-       1989
mentation is scheduled for February 28, 1993.
                                                              This review identified the need for GSA action to improve
                                                              the identification of the Government's office machine needs.
Purchase Order Form                                           The report contained five recommendations; four have
Period First Reported: April 1, 1989 to September 30,         been implemented.
1989
                                                              The remaining recommendation involves contracting offi-
This review of a purchase order form disclosed that the       cer reviews of internal management records. It is
design of the form caused problems with data entry,           scheduled to be implemented by October 31, 1992.




26 Semiannual Report To The Congress
                    Appendix //-- Audit Report Register
                                                                                           Financial
                                                                                      Recommendations
                                                                                   Funds To      Questioned
Date of    Audit                                                                   Be Put To    (Unsupported)
Report     Number                              Title                               Better Use        Costs

            (Note: Due to the pre-decisional nature oj some audits, the
           jinancial recommendations pertaining to these reports are not
            listed in this Appendix.)

PBS        INTERNAL AUDITS
04/06/92   A22135     Audit of Buildings Management Field Office, Denver
                      Federal Center

04/10/92   A21853      Preaward Lease Audit: One Metropolitan Square, st. Louis,
                       Missouri, Lease Number GS-06P-29959

04/13/92   A22120     Audit of Time and Attendance Practices, New Orleans
                      Buildings Management Field Office, Region 7

04/17/92   A21846      Preaward Lease Audit: 6800 West 115th Street, Overland
                       Park, Kansas, Lease Number GS-06P-29963

04/23/92   A20332      Preaward Lease Review: 157 Church Street, New Haven,
                       Connecticut, Lease Number GS-OIB(PEL)-03771 NEG.

04/27/92   A21818     Audit of Operations of the Federal Center Field Office,
                      4300 Goodfellow, St. Louis, Missouri

04/27/92   A23057     Preaward Lease Audit: 601 Pennsylvania Avenue, NW,
                      Washington, DC, Lease Number GS-IIB-20688

04/28/92   A20666     Review of Time and Attendance Practices of Public Build-
                      ings Service, Professional Services Branch, Region 2

04/30/92   A20672      Preaward Lease Review: 76 Eleventh Avenue, New York,
                       New York, Lease Number GS-02B-22651

05/07/92   AOO453     Audit of Funding for the Robert A. Young Federal Build-
                      ing Renovation Project, St. Louis, Missouri

05/07/92   A21246     Audit of Pre award Lease: Southern Bell Tower, Jack-
                      sonville, FL, Lease Number GS-04B-32036

05/15/92   A21553      Preaward Lease Review: Federal Bureau ofInvestigation,
                       Milwaukee, Wisconsin, Lease Number GS-05B-15388

05/18/92   A21250     Audit of Preaward Lease Actions: 4201 Building, Research
                      Triangle Park, NC, Lease Number GS-04B-31185




                                                                                   Office of Inspector General   27
                     Appendix //- Audit R art Register
                                                                                          Financial
                                                                                      Recommendations
                                                                                   Funds TO--··Questfoned
Date of    Audit                                                                   Be Put To    (Unsupported)
Report     Number                              Title                               Better Use       Costs

OS/22/92   A20622      Review of Time and Attendance Practices of the Platts-
                       burgh Buildings Management Field Office

OS/26/92   A21251      Audit of Preaward Lease Actions: Battlefield Mall, Vicks-
                       burg, MS, Lease Number GS-04B-28223 (SLA No. 15)

OS/27/92   A21559      Pre award Lease Review: United States Air Force, Fair-
                       born, Ohio, Lease Number GS-05B-15597

OS/28/92   A90167      Report on Review of the Public Buildings Service,
                       Classified Document Security in the National Capital
                       Region

OS/29/92   A21828      Postaward Audit of Lease Number GS-05B-15075: 4824
                       North Clark, Chicago, Illinois

OS/29/92   A22488      Prcaward Lease Audit: Tudor Business Center, Anchorage,
                       Alaska, Lease Number GS-lOB-05720

OS/29/92   A23059      Preaward Lease Audit: Franklin Court Building,
                       1099 14th Street, NW, Washington, DC, Lease Number
                       GS-ll B-20715

06/12/92   A22146      Preaward Lease Review: Internal Revenue Service and
                       Veterans Administration, Lease Number GS-07B-13807

06/24/92   A 10254     Audit of GSA's Indefinite Quantity Term Contracts in the
                       Boston Contracts Branch

06/25/92   A 10220     Review of Buildings Management, Burlington,     vr Field
                       Office

07/14/92   A10551      Audit of Buildings Management Field Office Operations,
                       West Philadelphia Field Office

07/15/92   A22412      Audit of Administration of Lease Number GS-09B-89959,
                       600 Harrison Street, San Francisco, California, Region 9

07/17/92   A22121      Audit of Buildings Management Field Office, New Orleans,
                       LA

07/20/92   A20682      Preaward Lease Review: Gateway I, Supplemental Lease
                       Agreement Number 10, Newark, New Jersey, Lease Num-
                       ber GS-02B-22253




28 Semiannual Report To The Congress
                     Appendix //- Audit Report Register
                                                                                            Financial
                                                                                       Recommendations
                                                                                   ~~------~~




                                                                                    Funds To      Questioned
Date of    Audit                                                                    Be Put To    (Unsupported)
Report     Number                              Title                                Better Use        Costs

07/22/92   A21573      Preaward Lease Review: Bureau of Alcohol, Tobacco and
                       Firec'UIDs, Detroit, Michigan, Lease Nwnber GS-05B-15557

07/24/92   A21265      Audit of Preaward Lease Actions: Corporate Square, Build-
                       ings 11 and 12, Atlanta, GA, Lease Nwnber GS-04B-31130

07/30/92   A21827      Audit of the Award and Administration of Term Construc-
                       tion Contracts in Region 6

07/30/92   A22515      Preaward Lease Audit: 901 Market Street, San Francisco,
                       California, Lease Number GS-09B-91396

08/03/92   A22509      Preaward Lease Audit of 2345 Northside Drive, San
                       Diego,California, GS-09B-91495

08/04/92   A20927      Audit of Administration of Major Repair and Alteration
                       Contracts

08/13/92   A23081      Preaward Lease Audit: Ballston Center Tower Three,
                       4015 Wilson Boulevard, Arlington, Virginia, Lease
                       Number GS-IIB-20719

08/19/92   A 10659     Audit of Controls Over Lease Payments, Region 4

08/26/92   A23041      Postaward Lease Audit: 2121 Virginia Avenue, NW,                                  $9,612
                       Washington, DC, Lease Number GS-llB-70 145

08/28/92   A 10656     Audit of Overtime Use Rate Development, Palmetto Whole-
                       sale Distribution Center

08/31/92   A21859      Audit of Region 6's Compliance with OMB Circular A-76
                       Requirements, Mechanical Maintenance Services at the
                       Federal Building, 1520 Market, St. Louis, Missouri

09/03/92   A 10564     Audit of Public Buildings Service Grant Administration

09/03/92   A21878      Postaward Audit of Lease Number GS-06P-29965: 2350
                       Market Street, St. Louis, Missouri

09/09/92   A21269      Audit of Pre award Lease Actions: Customs House,
                       Nashville, TN, Lease Number GS-04B-31290

09/10/92   A21222      Audit of GSA Region 4 Administration of Repair and Alter-
                       ation Projects




                                                                                     Office of Inspector General   29
                    Appendix //- Audit Report Register
                                                                                           Financial
                                                                                      Recommendations
                                                                                                  ------
                                                                                       --------" -------   -- " - - - - -

                                                                                   Funds To      Questioned
Date of    Audit                                                                   Be Put To    (Unsupported)
Report     Number                               Title                              Better Use         Costs

09/16/92   A20956       Audit of Proposed Lease Number GS-03B-20121. 400
                        Washington Street, Reading, Pennsylvania

09/17/92   A21274       Audit of Preaward Lease Actions: Camp Creek Business
                        Center, Atlanta, GA, Lease Number GS-04B-32151

09/24/92   A21585       Preaward Lease Review: U.S. Army Corps of Engineers,
                        St. Paul, Minnesota, Lease Number GS-05B-15587

09/25/92   A20602      Audit of the Award and Administration of Guard Con-
                       tracts in Region 2

09/28/92   Al1322       Audit of Processing Change Orders, Region 9

09/28/92   A23042       Audit of Fire and Safety Issues at Matland Company Ware-
                        house

PBS         CONTRACT AUDITS
04/02/92   A21825       Preaward Audit of Change Order Proposal: BSI
                        Constructors, Inc., Contract Number GS06P89GYCO 192

04/02/92   A22455       Preaward Audit of Architect and Engineering Services
                        Contract: Fugro-McClelland [West), Inc., Solicitation
                        Number GS-09P-91-KTD-0074

04/02/92   A22459       Pre award Audit of Architect and Engineering Services
                        Contract: The Austin Company, Solicitation Number
                        GS-09P-91-KID-0 145

04/06/92   A22137      Audit of Claim for Equitable Adjustment: Eckstine Elec-
                       tric Co., Contract Number GS-07P-89-HUC-0085

04/08/92   A20328      Pre award Audit of Architect and Engineering Services
                       Contract: Leers, Weinzapfel Associates Architects, Inc.,
                       Solicitation Number GS-O 1P-91-BWC-0079

04/09/92   A22453      Preaward Audit of Cost or Pricing Data: Service Plaster-
                       ing, Inc., Subcontractor to Sacramento Cooling Systems,
                       Inc., Contract Number GS-09P-91-KTC-0153

04/09/92   A23047      Report on Audit of Proposal for Change Order Number
                       AC02, Contract Number GS-llP90MKC0199: Cornell
                       AEC, A Wholly Owned SubSidiary of JWP, Incorporated,
                       Brentwood, Maryland



30 Semiannual Report To The Congress
                     Appendix //- Audit Report Register
                                                                                            Financial
                                                                                       Recommendations
                                                                                    Funds To      Questioned
Date of    Audit                                                                    Be Put To    (Unsupported)
Report     Number                               Title                               Better Use        Costs

04/10/92   A22460      Preaward Audit of Architect and Engineering Services
                       Contract: Mele Amantea Architects, Solicitation Number
                       GS-09P-91-KID-O 145

04/14/92   A21834      Preaward Audit of Small Business Administration 8(A)
                       Pricing Proposal: Akbar Electric Service Company, Inc.,
                       Solicitation Number GS06P92GYCOOO1 (N)

04/15/92   A20330      Pre award Audit of Architect and Engineering Services
                       Contract: Bennett Engineering, Inc., Solicitation Num-
                       ber GS-O 1P-91-BWC-0079

04/16/92   A20654      Audit of Claim for Increased Costs: G&C Enterprises, Inc.,
                       Contract Number GS-02P90CUC0054

04/16/92   A22461      Pre award Audit of Architect and Engineering Services
                       Contract: Bentley Engineering Company, Solicitation
                       Number GS-09P-91-KTD-O 145

04/17/92   All 429     Audit of Claim for Increased Costs: Marzer Venture, Lease
                       No. GS-10B-05541

04/17/92   A22105      Audit of Claim for EqUitable Adjustment: Gracon
                       Corporation, Contract Number GS-07P-89-HUC-0085

04/24/92   A23033      Preaward Audit of Architect and Engineering Services
                       Contract: Hayes, Seay, Mattern and Mattern, Incorpo-
                       rated, Solicitation Number GS11P91EGC0129

04/28/92   A20643      Preaward Audit of Change Order Proposal: BFT Proper-
                       ties, Foley Square, L.P., RFP No.3, Contract Number
                       GS-02P-91 CUC0057

04/29/92   A23039      Preaward Audit of Change Order Proposal: Ennis Elec-
                       tric Company, Inc., A Subcontractor to Grunley Con-
                       struction Co., Inc., Contract Number GS-11 P90MKCO 199

04/30/92   A20655      Pre award Audit of Change Order Proposal: Kohn,
                       Pedersen, Fox Associates, P.C., Consultant to BFT
                       Properties, Foley Square, L.P.-RFP No.1, Contract No.
                       GS-02P-91 CUC0057

04/30/92   A22116      Audit of Termination Proposal: Young Enterprises, Inc.,
                       Subcontractor Tri-Pro Services, Inc., Contract Number
                       GS-07P-90-HUC-0035




                                                                                    OfIice of Inspector General   31
                      A endix //- Audit Report Register
                                                                                               Financial
                                                                                          Recommendations
                                                                                       Funds To      Questioned
Date of      Audit                                                                     Be Put To    (Unsupported)
Report       Number                               Title                                Better Use        Costs


04/30/92     A22117      Audit of Termination Proposal:Young Enterprises, Inc"
                         Contract Number GS-07P-90-HUC-0035

04/30/92     A23045      Preaward Audit of Lease Alteration Proposal: Truland
                         Systems Corporation, A Subcontractor of Foulger-Pratt
                         Construction, Incorporated, Lease Number GS-11P-S70l

05/05/92     A21520      Pre award Audit of Change Order Proposal: James
                         McHugh Construction Company, Contract No,
                         GS05P90GBC0069(NEG)

05/05/92     A23056      Audit Report on Application of Agreed-Upon Procedures
                         of Subcontractor Proposal to Leo A Daly Company, Under
                         Solicitation Number GS11PSSEGD0171 Submitted by
                         Greenhorn and O'Mara, Incorporated, Greenbelt,
                         Maryland

05/11/92     A22472      Preaward Audit of Lease Escalation Proposal: Monroe
                         School Associates, Lease Number GS-09B-S0775

05/13/92     A20652      Preaward Audit of Supplemental Architect and Engi-
                         neering Services Contract: TAMS Consultants, Incor-
                         porated, Solicitation Number GS-IIP91EGD0139

05/13/92     A23046      Report on Audit of Subcontractor Proposal to Ronald Hsu
                         Construction Company, Incorporated Under General
                         Services Administration Solicitation Number GS-11 P91
                         MKC0177U for Initial Pricing Under Subcontract
                         Number 2423, G and B Environmental

05/15/92     A21545      Preaward Audit of Architect and Engineering Services
                         Contract: Construction Cost Systems, Inc., Solicitation
                         Number GS05P91GBD0161

05/19/92     A20662      Preaward Audit of Cost or Pricing Data: Tri-Gem's Builder's
                         Inc., Subcontractor Under U.S. Small Business Admin-
                         istration, Solicitation Number GS-02P-91-CUC-0095(NEG)

05/19/92     A23053      Preaward Audit of Lease Alteration Proposal: Truland
                         Systems Corporation, a Subcontractor of Foulger-Pratt
                         Construction, Incorporated, Lease Number GS-IIP-S70 1

OS/20/92     A21S60      Preaward Audit of Architect and Engineering Services
                         Contract: David Mason & ASSOCiates, Inc., Solicitation
                         Number GS06P92GYC0002




32   Semiannual Report To The Congress
                    Appendix 1/- Audit Report Register
                                                                                             Financial
                                                                                        Recommendations
                                                                                                        .---:-:----c
                                                                                     Funds To      Questioned
Date of    Audit                                                                     Be Put To    (Unsupported)
Report     Number                              Title                                 Better Use        Costs


OS/20/92   A22467     Preaward Audit of Lease Escalation Proposal: C & C Invest-
                      ments, Lease Number GS-09B-06600

OS/22/92   Al1686     Preaward Audit of Change Order Proposal: Grunley Con-
                      struction Co., Inc., Contract Number GS-11P90MKC-
                      0199

OS/22/92   A20664     Preaward Audit of Change Order Proposal: BPT Proper-
                      ties Foley Square, L.P.-RFP No. 80, Contract Number
                      GS-02P-91 CUC0057

OS/28/92   A21237     Preaward Audit of Architect and Engineering Services
                      Contract: Godsey Associates Architects, Contract Num-
                      ber GS-04P-90-EXC-0050

OS/28/92   A21238     Preaward Audit of Architect and Engineer Services Con-
                      tract: E. R. Ronald and Associates, Consultant
                      to Godsey Associates Architects, Contract Number
                      GS-04P-90-EXC-0050

OS/28/92   A21241     Preaward Audit of Architect and Engineering Services
                      Contract: J. N. Pease Associates, Contract Number
                      GS-04P-90-EXC-0068

OS/28/92   A21549     Preaward Audit of Architect and Engineering Services
                      Contract: Dubin, Dubin and Moutoussamy, Contract
                      Number GS05P87GBC0066

OS/29/92   Al1675     Preaward Audit of Change Order Proposal: John J.
                      Kirlin, Inc., a Subcontractor to A. S. McGaughan Com-
                      pany, Inc., Lease Number GS-llB-90222, RFPNo. 9

OS/29/92   A20658     Postaward Audit of Cost or Pricing Data: Historic Con-
                      servation and Interpretation, Inc., Contract Number
                      GS-02P-91 CUC-0069

OS/29/92   A20674     Preaward Audit of Architect and Engineering Services
                      Contract: Davis, Brody & Associates, Solicitation Num-
                      ber GS-11P-92-EGC-0005

06/03/92   A20676     Preaward Audit of Cost or Pricing Data: Eaton Electric,
                      Inc., Solicitation Number GS-02P-92-CUC-00 16(N)

06/03/92   A23058     Report on Audit of Proposal for Initial Pricing Under Solic-
                      itation Number GS1IP92EGC0005: Metcalf, Tobey and
                      Partners, Reston, Virginia


                                                                                     Office of Inspector General 33
                     Appendix // . . . Audit Report Regis r
                                                                                             Financial
                                                                                        Recommendations
                                                                                        ---  ~----~--~   ---~---------




                                                                                     Funds To      Questioned
Date of     Audit                                                                    Be Put To    (Unsupported)
Report      Number                               Title                               Better Use        Costs

06/09/92    A20673      Preaward Audit of Cost or Pricing Data: D.V. Gonzalez
                        Electric & General Contractors, Inc., Subcontractor Under
                        U.S. Small Business Administration, Solicitation Num-
                        ber GS-02P-92-CU C-OO 18N

06/11/92    A21852      Audit of Cost or Pricing Data: The Helping Hand of Good-
                        will Industries, Contract Number GS-06P-90-GXC-0054

06/15/92    A23331      Preaward Audit of Architect and Engineering Services
                        Contract: Hankins and Anderson Incorporated, Solicita-
                        tion Number GSIIP92EGCOO05

06/17/92    A23054      Pre award Audit of Lease Alteration Proposal: Warner
                        Mechanical Corporation, A Subcontractor of Foulger-
                        Pratt Construction, Incorporated, Lease Number GS-IIP-
                        8701

06/18/92    A20941      Preaward Audit of Supplemental Architect-Engineer Con-
                        tract for Construction Claims Analysis and Expert
                        Witness Services: Hill International, Inc., Solicitation
                        Number GS-09P-91-KID-O 144

06/18/92    A23034      Pre award Audit of Change Order Proposal: John J.
                        Kirlin, Inc., a Subcontractor to A. S. McGaughan Com-
                        pany, Inc., Lease Number GS-I1B-90222, RFP No. IS

06/19/92    A21258      Report on Audit of Contractor's Equitable Adjustment
                        Proposal (Claim): Danville-Findorff, Inc., Miami, Florida,
                        Under Contract No.GS-04P-S7-EXC-0075

06/19/92    A23064      Report on Audit of Specified Cost Elements Under Solic-
                        itation Number GS-IIP-92-EGC-0008: HTB, Incorpo-
                        rated, Oklahoma City, Oklahoma

06/22/92    A20651      Preaward Audit of Value Engineering Change Proposal:
                        Leewen Mechanical Corporation, Solicitation Number
                        GS-02P91 CUC0046

06/23/92    A20668      Postaward Audit of Cost or Pricing Data: Edwards and                             $1,600
                        Kelcey, Inc., Solicitation Number GS-02P-91-CUC0069

06/25/92    A23026      Preaward Audit of Lease Alteration Proposal: T. A. Beach
                        Corporation, A Subcontractor of The Charles E. Smith
                        Companies, Lease Number GS-IIB-OO 148




34 Semiannual Report To The Congress
                    Appendix //- Audit Report Register
                                                                                         Financial
                                                                                    Recommendations ..
                                                                                                ,~---~.-----~--.---   --

                                                                                 Funds To      Questioned
Date of    Audit                                                                 Be Put To    (Unsupported)
Report     Number                             Title                              Better Use        Costs

06/25/92   A23060     Pre award Audit of Architect and Engineering Services
                      Contract: Summer Consultants, Incorporated, Con-
                      sultant to HTB, Incorporated, Solicitation Number
                      GSllP92EGCOOO8

06/26/92   A23051     Preaward Audit of Lease Alteration Proposal: Foulger-
                      Pratt Construction, Incorporated, Lease Number GS-IIP-
                      8701

06/29/92   A23050     Preaward Audit of Lease Alteration Proposal: Warner
                      Mechanical Corporation, A Subcontractor of Foulger-
                      Pratt Construction, Incorporated, Lease Number GS-IIP-
                      8701

06/30/92   Al1631     Preaward Audit of Lease Alteration Proposal: Executive
                      Floors & Interiors, Inc., a Subcontractor to the Calvert
                      Company, Lease No. GS-llB-70l49

06/30/92   A20640     Preaward Audit of Change Order Proposal: BPT Pro-
                      perties, Foley Square, L.P., RFP No.1, Contract No.
                      GS-02P-91 CUC0057

06/30/92   A20667     Postaward Audit of Cost or Pricing Data: Historic Con-                        $72,299
                      servation and Interpretation, Inc., Contract Number
                      GS-02P-91 CUC-0069

06/30/92   A20678     Preaward Audit of Cost or Pricing Data: AOKI Construc-
                      tion (Ny) Co., Ltd., Contract Number GS-02P-91-CUC-
                      0058

06/30/92   A23055     Preaward Audit of Lease Alteration Proposal: Foulger-
                      Pratt Construction, Incorporated, Silver Spring Metro
                      Center Phase N, Lease Number GS-ll P-870 1

07/10/92   A22168     Preaward Audit of Forward Pricing Proposal: Brasfield
                      and Gorrie General Contractor, Inc., Contract Number
                      GS-07P-90-HUC-0076

07/13/92   A21864     Preaward Audit of Architect and Engineering Services
                      Contract: Bibb and Associates, Inc., Solicitation Number
                      GS I1P92EGCOO 13

07/14/92   A21857     Preaward Audit of Architect and Engineering Services
                      Contract: Hellmuth, Obata & Kassabaum, Inc., Solicita-
                      tion Number GS06P92GYC0002




                                                                                 Ofllce of Inspector General 35
                    Appendix // . . . Audit Report Register
                                                                                              Financial
                                                                                         Recommendations
                                                                                      ------------------------------

                                                                                      Funds To      Questioned
Date of    Audit                                                                      Be Put To    (Unsupported)
Report     Number                               Title                                 Better Use        Costs

07/16/92   A21558      Preaward Audit of Change Order Proposal: Maron Elec-
                       tric Company, Subcontractor to Power Contracting and
                       Engineering Corporation, Contract Number GS05P91-
                       GBC0048

07/17/92   A21868      Audit of Labor Burden and Overhead Rates: J. E. Dunn
                       Construction Company, Contract Number GS06P91-
                       GYC0048

07/20/92   A20684      Preaward Audit of Architect and Engineering Services
                       Contract: Giorgio Cavaglieri, Architect, Solicitation Num-
                       ber GS-02P-92-CUC-00 12(N)

07/22/92   A20679      Preaward Audit of Architect and Engineering Services
                       Contract: Kohn, Pedersen, Fox & Associates, P.C., Con-
                       sultants to Boor/ A Architects, Project Number NOR02400

07/23/92   A21863      Preaward Audit of Small Business Administration 8(A)
                       Pricing Proposal: Tol-Tec, Incorporated, Solicitation Num-
                       berGS06P92GYC0021

07/24/92   A23063      Preaward Audit of Lease Escalation Proposal: Stern &
                       Moran Properties, Inc., Lease Number GS-038-6295

07/27/92   Al1653      Preaward Audit of Lease Alteration Proposal: Sundance
                       Electrical Contractors, Inc., a Subcontractor to the Calvert
                       Company, Lease Number GS-11B-70 149

07/28/92   A22156      Preaward Audit of Architect and Engineering Services
                       Contract: Glover-Smith-Bode, Inc., Contract Number GS-
                       07P-89-HUC-0066/PS1l

07/28/92   A22157      Preaward Audit of Architect and Engineering Services
                       Contract: Persons-Howell Engineering, Inc., Contract
                       Number GS-07P-89-HUC-0066/PS11

07/30/92   A2l568      Preaward Audit of Architect and Engineering Services
                       Contract: Architects Four, Inc., Solicitation Number
                       GS05P92GBD0004

07/30/92   A23038      Preaward Audit of Change Order Proposal: Chas. Riddle
                       Associates, Inc., Contract Number GS-1IP90MKC-0 116




36 Semiannual Report To The Congress
                    Appendix /I . . . Audit R ort Register
                                                                                            Financial
                                                                                    ~~
                                                                                       Recommendations
                                                                                         -   ---~~~--




                                                                                    Funds To      Questioned
Date of    Audit                                                                    Be Put To    (Unsupported)
Report     Number                              Title                                Better Use,       Costs

07/31/92   A20575     Preaward Audit of Architect and Engineering Services
                      Contract: Walsh-Lowe & Architects, Inc., Subcontractor
                      Under Hellmuth, Obata & Kassabaum, Inc., Contract
                      Number GS06P92GYC0002

07/31/92   A23062     Preaward Audit of Lease Alteration Proposal: Truland
                      Systems Corporation, a Subcontractor of George Hyman
                      Construction Company, Lease Number GS11P90MKC
                      0197 "NEG"

08/06/92   A22430     Audit of Claim for Increased Costs: Q-1 Service, Inc., Con-
                      tract Number GS-09P-90-KSC-0033

08/12/92   A21570     Preaward Audit of Architect and Engineering Services
                      Contract: Corporate Design Group, Inc., Solicitation Num-
                      ber GS05P92GBD0003

08/18/92   A23069     Preaward Audit of Lease Alteration Proposal: Hess
                      Mechanical Corporation, a Subcontractor of OMNI Con-
                      struction, Inc., Lease Number GS-11B-00 143

08/19/92   A21564     Preaward Audit of Architect and Engineering Services
                      Contract: Harry Weese Associates, Solicitation Number
                      GS05P92GBD0006

08/20/92   A21875     Pre award Audit of Architect and Engineering Services
                      Contract: Abend Singleton Associates, Inc., Solicitation
                      Number GS06P92GYCOO 10

08/24/92   A20687     Preaward Audit of Architect and Engineering Services
                      Contract: Lindemon, Winckelmann, Martin, Aia & Asso-
                      ciates, P.C., Solicitation Number GS-02P-92-CUC-OO 12(N)

08/24/92   A22506     Preaward Audit of Cost or Pricing Data: J. B. Industries,
                      Solicitation Number GS-09P-92-KSC-0054

08/24/92   A22510     Preaward Audit of Cost or Pricing Data: GSE Construc-
                      tion Company, Inc., Solicitation Number GS-09P-92-KTC-
                      0052

08/24/92   A22523     Preaward Audit of Cost or Pricing Data: Quest Intelligence
                      Bureau, Ltd., Solicitation Number GS-09P-91-KSD-0077

08/25/92   A22507     Preaward Audit of Cost or Pricing Data: J. B. Industries,
                      Solicitation Number GS-09P-KSC-0055




                                                                                    Office of Inspector General 37
                     Appendix //- Audit Report Register
                                                                                         Financial
                                                                                    Recommendations
                                                                                 ---------       "-----------

                                                                                 Funds To      Questioned
Date of    Audit                                                                 Be Put To    (Unsupported)
Report     Number                             Title                              Better Use        Costs

08/25/92   A23076      Preaward Audit of Architect and Engineering Services
                       Contract: Hanscomb Associates, Incorporated, Contract
                       Number GS 11 P92EGCOO 12

08/26/92   A20685      Preaward Audit of Supplemental Architect and Engineer-
                       ing Services Contract: Brennan Beer Gorman/Architects,
                       Solicitation Number GS-02P-92-CUD-0008(N)

08/26/92    A21567     Preaward Audit of Change Order Proposal: Power Con-
                       tracting and Engineering Corporation, Contract Num-
                       ber GS05P91 GBC0048

08/26/92   A21871      Preaward Audit of Arehitect and Engineering Services
                       Contract:Frewen Architects, Inc., Solicitation Number
                       GS06P92GYCOO 10

08/27/92   A21876      Preaward Audit of Architect and Engineering Services
                       Contract: Ellerbe Becket Construction Services, Inc.,
                       Solicitation Number GS06P92GYCOO 10

08/28/92   A23066      Preaward Audit of Lease Alteration Proposal: Mona Elec-
                       trical Construction, Inc., a Subcontractor of Omni
                       Construction, Inc., Lease Number GS-] IB-00143

08/31/92   A21247      Preaward Audit of Architect and Engineering Services
                       Contract: Smallwood, Reynolds, Stewart, Stewart and
                       Associates, Inc., Solicitation Number GS-04P-91-EXC-
                       0072

08/31/92   A21248      Preaward Audit of Architect and Engineer Services
                       Contract: Newcomb and Boyd Consulting Engineers,
                       Consultant to Smallwood, Reynolds, Stewart, Stewart
                       and Associates, Inc., Solicitation Number GS-04P-91-
                       EXC-0072

08/31/92   A21249      Preaward Audit of Architect and Engineering Services
                       Contract: Stanley D. Lindsey and Associates, Ltd., Con-
                       sultant to Smallwood, Reynolds, Stewart, Stewart and
                       Associates, Solicitation Number GS-04P-91-EXC-0072

08/31/92   A23080      Preaward Audit of Lease Alteration Proposal: Mona Elec-
                       trical Services, Inc., a Subcontractor of Northwestern
                       Development Company, Lease Number GS-03B-6521




38 Semiannual Report To The Congress
                    Appendix // . . . Audit Report Register
                                                                                           Financial
                                                                                      Recommendations
                                                                                 --""--.-.---.-~   ------------"~---~"




                                                                                   Funds To      Questioned
Date of    Audit                                                                   Be Put To    (Unsupported)
Report     Number                             Title                                Better Use        Costs

09/04/92   A21569     Preaward Audit of Change Order Proposal: Colfax Cor-
                      poration, Second Tier Subcontractor to James McHugh
                      Construction Company, Contract Number GS05P90-
                      GBC0069(NEG)

09/09/92   A22161     Audit of Claim for Increased Costs: Plaza De Oro, Lease
                      Number GS-07B-13116

09/11/92   A22490     Preaward Audit of Architect and Engineering Services
                      Contract: Broome, Oringdulph, OToole, Rudolf, Boles,
                      and Associates, P,C., Project Number NOR02400

09/11/92   A22491     Preaward Audit of Architect and Engineering Services
                      Contract: KPFF Consulting Engineers, Project Number
                      NOR02400

09/11/92   A22492     Preaward Audit of Architect and Engineering Services
                      Contract: PAE Consulting Engineers, Inc., Project
                      Number NOR02400

09/14/92   A1l380     Preaward Audit of Change Order Proposal: Tutor-
                      Saliba Corporation, Contract Number GS-09P-88-KTC-
                      0232

09/15/92   A20686     Preaward Audit of Supplemental Architect and Engineer-
                      ing Services Contract: Edwards and Kelcey, Inc., Solici-
                      tation Number GS-02P-92-CUD-0008(N)

09/15/92   A21872     Preaward Audit of Architect and Engineering Services
                      Contract: William Tao & Associates, Inc., Solicitation
                      Number GS06P92GYCOO 10

09/16/92   A21870     Preaward Audit of Architect and Engineering Services
                      Contract: Ellerbe Becket, Inc., Solicitation Number
                      GS06P92GYCOO 10

09/17/92   A22470     Preaward Audit of Cost or Pricing Data: Merret Square,
                      Inc., Contract Number GS-09B-88936

09/17/92   A22471     Preaward Audit of Cost or Pricing Data: Hensel Phelps
                      Construction Co., Contract Number GS-09B-88936

09/17/92   A23083     Preaward Audit of Lease Alteration Proposal: Form Con-
                      struction Company, Incorporated, a Subcontractor of
                      Northwestern Development Company, Lease Number
                      GS-03B-6521



                                                                                    Office of Inspector General 39
                     Appendix //- Audit Report Register
                                                                                           Financial
                                                                                      Recommendations
                                                                                   Funds To-guestioned-
Date of    Audit                                                                   Be Put To    (Unsupported)
Report     Number                              Title                               Better Use        Costs

09/22/92   Al1638      Preaward Audit of Sole Source Proposal: Chas. Riddle
                       Associates, Inc./Roofers. Inc. Joint Venture, Contract
                       Number GS-IIP91MKCO 105 "NEG"

09/22/92   A22524      Preaward Audit of Architect and Engineering Services
                       Contract: Tsuchiyama & Kaino, Inc., Solicitation Num-
                       ber GS-09P-92-KTC-0022

09/22/92   A22526      Preaward Audit of Architect and Engineering Services
                       Contract: Frederick Brown Associates, Solicitation Num-
                       ber GS-09P-92-KTC-0022

09/23/92   A22527      Preaward Audit of Architect and Engineering Services
                       Contract: Gruen Associates, Solicitation Number GS-
                       09P-92-KTC-0022

09/25/92   A21577      Preaward Audit of Architect and Engineering Services
                       Contract: Ellis/Naeyaert/Genheimer/ Associates, Solic-
                       itation Number GS05P92GBD0027

09/25/92   A2 1580     Preaward Audit of Architect and Engineering Services
                       Contract: Walter H. Sobel and Associates, Consultant to
                       the Spector Group, Solicitation Number GS-02P92CUC-
                       0029(N)

09/25/92   A22175      Preaward Audit of Small Business Administration 8(a)
                       Pricing Proposal: South West Protection Service II, Inc.,
                       Solicitation Number GS-07-P-92-DRP-0085

09/25/92   A22525      Pre award Audit of Architect and Engineering Services
                       Contract: Zimmer Gunsul Frasca Partnership, Solicita-
                       tion Number GS-09P-92-KTC-0022

09/25/92   A22528      Pre award Audit of Architect and Engineering Services
                       Contract: Martin & Huang International, Inc., Solicita-
                       tion Number GS-09P-92-KTC-0022

09/25/92   A23077      Preaward Audit of Cost or Pricing Data: Wm. D. Euille &
                       Associates, Incorporated, Solicitation Number GS IlP92
                       MKC0049

09/29/92   A20957      Preaward Audit of Cost or Pricing Data: John Milner Asso-
                       ciates, Inc., Contract Number GS-02P-91-CUC-0069 (NEG)

09/29/92   A21574      Preaward Audit of Cost or Pricing Data: McCoy Services,
                       Inc., Solicitation Number GS05P92GAC0051



40 Semiannual Report To The Congress
                    Appendix //- Audit Report Register
                                                                                          Financial
                                                                                     Recommendations
                                                                                  Funds To      Questioned
Date of    Audit                                                                  Be Put To    (Unsupported)
Report     Number                             Title                               Better Use        Costs

09/29/92   A23087     Preaward Audit of Change Order Proposal: Truland Sys-
                      tems Corporation, a Subcontractor of George Hyman
                      Construction Company, Contract Number GS-IIP90
                      MKCOl97 "NEG"

FSS        INTERNAL AUDITS
04/02/92   A00807     Audit of the Region 5 Fleet Management Maintenance
                      Control Center

04/08/92   A22443     Audit of Travel Management Center Standard Contract                         $172,446
                      Clause on Refunds for Unused Tickets

04/15/92   A11037     Audit of Maintenance Control Center Operations in
                      Region 6

OS/27/92   A20656     Review of Controls Over Cash Receipts for Surplus
                      Personal Property Sales, Region 2

06/02/92   A21840     Audit of Controls Over Cash Receipts for Surplus
                      Personal Property Sales in Region 6

06/04/92   A22454     Review of Controls Over Cash Receipts for Surplus Per-
                      sonal Property Sales, Region 9

06/05/92   A23324     Audit of Embassy Travel Service ,Inc. , Travel Management
                      Center

06/11/92   A20323     Review of Controls Over Cash Receipts for Surplus Per-
                      sonal Property Sales, Region 1

06/12/92   A20937     Limited Review of Controls Over Cash Receipts for Sur-
                      plus Personal Property Sales in Region 3

06/18/92   A21227     Audit of Controls Over Cash Receipts for Surplus Per-
                      sonal Property Sales

06/23/92   A22420     Audit of the Sacramento Area Travel Management Cen-
                      ter, Contract GS-09F-80273

06/24/92   A21539     Review of Controls Over Cash Receipts for Surplus Per-
                      sonal Property Sales, Region 5

06/30/92   A23332     Audit of the Customer Supply Center, Observation of the
                      1992 Inventory, Franconia, Virginia



                                                                                  Office of Inspector General 41
                     Appendix //- Audit Report Register
                                                                                          Financial
                                                                                     Recommendations
                                                                                  ---------------------

                                                                                  Funds To      Questioned
Date of    Audit                                                                  Be Put To    (Unsupported)
Report     Number                              Title                              Better Use        Costs

06/30/92    A23335      Audit of the Industrial Products Center, Observation of
                        the 1992 Inventory, Franconia, Virginia

07/15/92   Al1391       Audit ofTI1ird Party Claims, Fleet Management Branch,
                        Region 9

07/16/92    A22142      Audit of Controls Over Cash Receipts for Surplus Per-
                        sonal Property Sales, Fort Worth, Texas, Region 7

07/22/92   A23319       Audit of Carefree Travel, Inc" Travel Management Center      $8,367

08/13/92   AI0862       Audit of Detroit Fleet Management Center Operations

08/28/92   A20623       Review of Fleet Management Center Operations, San
                        Juan, Puerto Rico

08/31/92   AlO071       Audit of Maintenance Control Center in Region 9

09/02/92   Al1818      Audit of the Effectiveness of FSS in MOnitoring Donated
                       Property

09/10/92   AlO685      Audit of Third Party Claims, Region 4

09/15/92   A23340       Review of Controls Over Cash Receipts from GSA's Sur-
                        plus Personal Property Sales

09/23/92   AlO622      Audit of the State of Tennessee Surplus Property
                       Donation Program

09/24/92   A00751      Audit of the Quality Approved Manufacturers Agreement
                       Program, Region 9

FSS         CONTRACT AUDITS
04/06/92   A20660      Preaward Audit of Cost or Pricing Data: Locus, Incorpo-
                       rated, Solicitation Number 2FYG-JI-90-0006-M

04/06/92   A21521      Preaward Audit of Multiple Award Schedule Contract:
                       Sun Electric Corporation, Solicitation Number 7FXI-R6-
                       91-4904-1

04/10/92   A21542      Preaward Audit of Multiple Award Schedule Contract:
                       Skolnik Industries, Inc., Solicitation Number 2FYS-BD-
                       91-0004-M




42 Semiannual Report To The Congress
                    Appendix //- Audit Report Register
                                                                                           Financial
                                                                                      Recommendations
                                                                                   Funds To      Questioned
Date of    Audit                                                                   Be Put To    (Unsupported)
Report     Number                              Title                               Better Use        Costs

04/15/92   A11373     Preaward Audit of Cost or Prtcing Data: Wajax-Pacific Fire
                      Equipment. Inc., Solicitation No. 7FXI-L5-90-4209-B

04/16/92   A20657     Preaward Audit of Multiple Award Schedule Contract:
                      Kulite Semiconductor Products, Incorporated, Solicita-
                      tion Number FCGS-W3-92- 0031-B-N

04/17/92   A20906     Preaward Audit of Cost or Pricing Data: Sutron Corpo-
                      ration, Solicitation Number FCGS-X3-91-0026-B-N

04/17/92   A23325     Preaward Audit of Multiple Award Schedule Contract:
                      Pressure Systems, Inc., Solicitation Number FCGS-W3-
                      92-0031-B-N

04/22/92   A00221     Postaward Audit of Multiple Award Schedule Contract:                          $622,484
                      3M Visual Systems Division, Contract No. GS-OOF-85009
                      forthePertodOctober 11, 1985 through September 30, 1987

04/22/92   A21232     Preaward Audit of Multiple Award Schedule Contract:
                      Interface Flooring Systems Inc., Solicitation No. 3FNH-
                      92-F301-N-12-12-91

04/24/92   A22130     Preaward Audit of Cost or Pricing Data: Insulgard Cor-
                      poration, Solicitation Number 7FXG-B3-91-8411-B

04/30/92   A20329     Preaward Audit of Cost or Prtcing Data: Time-Frame, Inc.,
                      Solicitation Number 7FXG-Y8-91-9911-B

05/11/92   A20661     Preaward Audit of Cost or Pricing Data: Avionic Instru-
                      ments, Incorporated, Solicitation Number 7FXI-R7-91-
                      6109-B

05/11/92   A22149     Preaward Audit of Multiple Award Schedule Contract:
                      Mohawk Carpet Corporation, Solicitation Number 3FNH-
                      92-F30l-N-12-12-91

05/12/92   A20327     Preaward Audit of Multiple Award Schedule Contract:
                      Simplex Time Recorder Co., Solicitation Number FCGE-
                      C2-920 103-B

05/14/92   A20928     Preaward Audit of Cost or Prtcing Data: ITT Defense Tech-
                      nology Corporation, Electro-Optical Products Division,
                      Solicitation Number 7FXG-B3-91-8411-B

05/14/92   A20930     Audit of Cost or Pricing Data: Performance Review
                      Institute



                                                                                   Office of Inspector General 43
                    Appendix // . . . Audit Report Register
                                                                                              Financial
                                                                                         Recommendations
                                                                                     --Funds To- ~estio-n-e-d-C-­
Date of    Audit                                                                      Be Put To    (Unsupported)
Report     Number                               Title                                 Better Use        Costs

05/14/92   A21546      Preaward Audit of Multiple Award Schedule Contract:
                       Cummins-Allison Corporation, Solicitation Nwnber Ii'CGE-
                       C2-920103-B

05/19/92   A21851      Preaward Audit of Multiple Award Schedule Contract:
                       Flir Systems, Inc., Solicitation Number FCGS-W3-92-
                       0031-B-N

OS/22/92   A22143       Preaward Audit of Multiple Award Schedule Contract: lSI
                        Group, Inc., Solicitation Nwnber FCGS-W3-92-0031-B-N

OS/26/92   A20929      Preaward Audit of Cost or Pricing Data: Nite Optics, lncor-
                       porated, Solicitation Number 7FXG-B3-91-8411-B

OS/29/92   A20637      Postaward Audit of Government Billings Under Multiple                         $407,179
                       Award Schedule Contract: Eastman Kodak Com-
                       pany, Contract Number GS-00F-01303

OS/29/92   A22465      Preaward Audit of Multiple Award Schedule Contract:
                       Endevco Corporation, Solicitation Number FCGS-W3-
                       92-0031-B-N

OS/29/92   A23329      Preaward Audit of Multiple Award Schedule Contract:
                       Joy Carpets, Inc., Solicitation Number 3FNH-92-F301-
                       N-12-12-91

06/01/92   A22150      Preaward Audit of Multiple Award Schedule Contract:
                       American National Carpet, Inc., Solicitation Number
                       3FNH-92-F30 1-N-12-12-91

06/03/92   A22145      Preaward Audit of Multiple Award Schedule Contract:
                       Karastan Bigelow Carpets, Solicitation Number 3FNH-
                       92-F30l-N-12-12-91

06/04/92   A21557      Preaward Audit of Multiple Award Schedule Contract:
                       Zenith Electronics Corporation, Solicitation Number
                       7FXG-C4-92-7702-B

06/11/92   A20325      Preaward Audit of Multiple Award Schedule Contract:
                       Pitney Bowes, Inc., Solicitation Number FCGE-C2-
                       920103-B

06/12/92   A21556      Preaward Audit of Multiple Award Schedule Contract:
                       Cleveland Range, Inc., Solicitation Number 7FXG-AS-91-
                       7354-B




44 Semiannual Report To The Congress
                     Appendix // . . . Audit Report Register
                                                                                          Financial
                                                                                     Recommendations
                                                                                                    ------:c------:o-
                                                                                  Funds To      Questioned
Date of    Audit                                                                  Be Put To    (Unsupported)
Report     Number                              Title                              Better Use        Costs

06/12/92   A22152      Preaward Audit of Multiple Award Schedule Contract:
                       Mannington Carpets, Inc., Solicitation Number 3FNH-
                       92-F301-N-12-12-91

06/16/92   A22464      Preaward Audit of Multiple Award Schedule Contract:
                       Friden Alcatel, Solicitation Number FCGE-C2-92-0 103-B

06/17/92   A21554      Preaward Audit of Multiple Award Schedule Contract:
                       Carter-Hofiinann Corporation, Solicitation Number 7FXG-
                       A8-91-7354-B

06/23/92   A21861      Preaward Audit of Cost or Pricing Data: American Recre-
                       ation Products, Inc., Solicitation Number 7FXG-C3-92-
                       7801-B

06/30/92   A20677      Preaward Audit of Multiple Award Schedule Contract:
                       United Hospital Supply Corporation, Solicitation Num-
                       ber FCGS-X2-91-0028-B-N

07/09/92   A22482      Pre award Audit of Multiple Award Schedule Contract:
                       Bentley Mills, Incorporated, Solicitation Number 3FNH-
                       92-F301-N-12-12-91

07/10/92   AI0832      Postaward Audit of Multiple AwardSchedule Contract:                            $177,318
                       The Toro Company, Contract Number GS-07F-13009

07/10/92   A23326      Preaward Audit of Multiple Award Schedule Contract:
                       Bureau of National Affairs, Inc., Solicitation Number
                       2FYS-BD-90-0003-1

07/13/92   A22478      Pre award Audit of Cost or Pricing Data: Ebsco Interi-
                       ors, Solicitation Number 3FNH-92-F301-N-12-12-91

07/15/92   A21555      Pre award Audit of Multiple Award Schedule Contract:
                       Scotsman Ice Systems, Division of Scotsman Industries,
                       Inc., Solicitation Number 7FXG-A8-91-7354-B

07/22/92   A 10679     Preaward Audit of Multiple Award Schedule Contract:
                       Exide Electronics Corporation, Solicitation Number 7FXI-
                       R7-91-6109B

07/22/92   A21561      Preaward Audit of Multiple Award Schedule Contract:
                       Century Equipment, Incorporated, Solicitation Number
                       7FXI-U5-90-3704-B




                                                                                  Office of Inspector General 45
                     Appendix //- Audit Report                                       ister
                                                                                             Financial
                                                                                       -
                                                                                        Recommendations
                                                                                           --   ---.-.--------------.~--




                                                                                     Funds To      Questioned
Date of    Audit                                                                     Be Put To    (Unsupported)
Report     Number                                  Title                             Better Use        Costs

07/23/92   A20943           Preaward Audit of Multiple Award Schedule Contract:
                            Agema Infrared Systems, Solicitation Number FCGS-W3-
                            0031-B-N

07/31/92   A23337           Preaward Audit of Multiple Award Schedule Contract:
                            Nelco Corporation, Solicitation Number 7FXG-AS-91-
                            7354-B

OS/07/92   A22159           Preaward Audit of Multiple Award Schedule Contract:
                            Glenco Distributing, Inc., Solicitation Number 7FXG-
                            C4-92-7702-B

OS/1O/92   A22172           Preaward Audit of Multiple Award Schedule Contract:
                            J oems Healthcare, Inc., Solicitation Number FCNH-91-
                            FW01-N-5-2-91

OS/27/92   A106S0           Preaward Audit of Multiple Award Schedule Contract:
                            Kaplan School Supply Corporation, Solicitation Number
                            7 -FXG-L3-91-7S02-B

09/03/92   A23339           Preaward Audit of Multiple Award Schedule Contract:
                            Gill Marketing Company, Solicitation Number 7FXG-AS-
                            91-7354-B

09/17/92   A22163           Preaward Audit of Multiple Award Schedule Contract:
                            'The Delfleld Company, Solicitation Number 7FXG-AS-
                            91-7354-B

09/22/92   A2333S           Prcaward Audit of Multiple Award Schedule Contract:
                            Bray and Scarff, Inc., Solicitation Number 7FXG-AS-91-
                            7354-B

09/22/92   A23349           Postaward Audit of Multiple Award Schedule Contract:                               $IS,514
                            Nelco Corporation, Contract Number GS-07F-1S105

09/23/92   A20952           Preaward Audit of Multiple Award Schedule Contract:
                            Yorkraft, Inc., Solicitation Number 7FXG-AS-91-7354-B

09/24/92   A23346           Preaward Audit of Multiple Award Schedule Contract:
                            Hobart Corporation, Manufacturer for Gill Marketing
                            Company, Solicitation Number 7FXG-AS-91-7354-B

09/2S/92   A2334 1          Preaward Audit of Multiple Award Schedule Contract:
                            Intermetro Industries Corporation, Solicitation Number
                            7FXG-AS-91-7354-B




46 Semiannual   I~eport   To The Congress
                     Appendix //- Audit Report Register
                                                                                          Financial
                                                                                     Recommendations
                                                                                 .-----~-~-




                                                                                  Funds To      Questioned
Date of    Audit                                                                  Be Put To    (Unsupported)
Report     Number                              Title                              Better Use        Costs

09/29/92   A21259      Preaward Audit of Multiple Award Schedule Contract:
                       Game Time, Incorporated, Solicitation Number 7FXG-
                       C3-92-7801-B

IRMS       INTERNAL AUDITS
OS/29/92   A1l931      Limited Audit of FTS2000 Customer Support

06/30/92   A23624      Audit of FTS2000 Travel Expenses

07/08/92   A10519      Audit ofIRMS Cost RecoveIY System for the Shared Infor-
                       mation Processing and Data Communications Program

07/10/92   A00952      Review of Contract Workload Management

08/24/92   A1l914      Audit of Controls Over Payments to Office of Technical
                       Assistance Contractors

09/29/92   A21532      Audit of Administration of Purchase of Telephone and
                       Services (POTS) Contracts, Region 4

09/29/92   A23633      Audit of FTS2000 Customer Training, AT&T Contract

IRMS       CONTRACT AUDITS
04/06/92   A21547      Limited Audit of Government Billings: Zenith Data Sys-                       $9,612
                       tems, Contract Numbers GSOOK90AGS5212 and
                       GSOOK91AGS5054

04/10/92   A20924      Preaward Audit of Multiple Award Schedule Contract:
                       Black Box Corporation, Solicitation Number GSC-KESF-
                       B-C-00046-N-1O-30-91

04/10/92   A21848      Preaward Audit of Change Order Proposal: U.S. Sprint
                       Communications Company, Contract Number GSOOK89-
                       AHD0009

04/13/92   A23620      Preaward Audit of Cost or Pricing Data: American Man-
                       agement Systems, Inc., Solicitation Number GSC-OIT-OO21

04/13/92   A2362 1     Preaward Audit of Cost or Pricing Data: Booz, Allen &
                       Hamilton, Inc., Subcontractor to Computer Data
                       Systems, Inc., Solicitation Number GSC-OIT-0021




                                                                                  Office of Inspector General 47
                    Appendix //- Audit Report Register
                                                                                             Financial
                                                                                        Recommendations
                                                                                     --"-.-~---




                                                                                     Funds To      Questioned
Date of    Audit                                                                     Be Put To    (Unsupported)
Report     Number                                Title                               BeUer Use         Costs

04/13/92   A23622       Preaward Audit of Cost or Pricing Data: Computer Data
                        Systems, Inc., Solicitation Number GSC-OIT-0021

04/13/92   A23623       Pre award Audit of Cost or Pricing Data: Government
                        Systems, Incorporated, Subcontractor to Computer Data
                        Systems, Inc., Solicitation Number GSC-OIT-0021

04/13/92   A23625      Preaward Audit of Cost or Pricing Data: International
                       Technology Corporation, Solicitation Number GSC-KESF-
                       B-C-00046-N-10-30-91

04/13/92   A23626       Preaward Audit of Cost or Pricing Data: Hughes SIX Cor-
                        poration, Solicitation Number GSC-KESF-B-C- 00046-
                        N-1O-30-91

04/14/92   A22438      Preaward Audit of Multiple Award Schedule Contract:
                       AST Research, Incorporated, Solicitation Number GSC-
                       KESF-B-C-00046-N-10-30-91

04/17/92   A21540       Preaward Audit of Cost or Pricing Data: KMS Advanced
                        Products, Incorporated, Solicitation Number GSC-KESF-
                        B-C-00046-N-1O-30-91

04/22/92   A22448       Preaward Audit of Multiple Award Schedule Contract:
                        Grid Systems Corporation, Solicitation Number GSC-
                        KESF-B-C-00046-N-10-30-91

05/14/92   A20337      Audit of Specified Cost Element Review for Initial Pricing:
                       Solicitation Number GSC-OIT-0544, International Sys-
                       tems Services Corporation, Stamford, Connecticut

06/26/92   A22495       Preaward Audit of Cost or Pricing Data: STI, Inc., Solici-
                        tation Number RFP 9KCS-91-0002

06/30/92   A23629      Audit of Termination Proposal: Network Management,
                       Incorporated, Contract Number GS-00K-90AJD0042,
                       Delivery Order Number K0091AJD0626

07/06/92   A20950      Preaward Audit of Multiple Award Schedule Contract:
                       Orbacom Systems, Incorporated, Solicitation Number
                       GSC-KESR-00063-N-05-13-92

07/09/92   A22485      Preaward Audit of Multiple Award Schedule Contract:
                       Trimble Navigation, Ud., Solicitation Number GSC-KESR-
                       00063-N-05-13-92




48 Semiannual Report To The Congress
                    Appendix // .... Audit Report Register
                                                                                           Financial
                                                                                      Recommendations
                                                                                   Funds To      Questioned
Date of    Audit                                                                   Be Put To    (Unsupported)
Report     Number                              Title                               Better Use        Costs

07/17/92   A22166     Preaward Audit of Multiple Award Schedule Contract:
                      Kavomas, Inc., Solicitation Number GSC-KESO-C-00047-
                      N-4-21-92

07/22/92   A22477     Preaward Audit of Multiple Award Schedule Contract: OJ&J
                      Software Corporation dba/Egghead Discount Software,
                      Solicitation Number GSC-KESF-B-C-00046-N-1 0-30-91

07/27/92   A22489     Preaward Audit of Multiple Award Schedule Contract:
                      Hewlett-Packard Company, Solicitation Number GSC-
                      KESO-C-00047 -N-4-21-92

07/30/92   A22503     Preaward Audit of Multiple Award Schedule Contract:
                      Trans World Communications, Inc., Solicitation Number
                      GSC-KESR-00063-N-05-13-92

07/31/92   A22511     Preaward Audit of Cost or Pricing Data: Eastern Com-
                      puter, Inc., Subcontractor to STI, Incorporated, Contract
                      Number 9KCS-91-0002

07/31/92   A23630     Preaward Audit of Cost or Pricing Data: Systems Engi-
                      neering and Management Associates, Incorporated, GSC-
                      KEGB-92-03

08/06/92   A21536     Audit ofTermination Proposal: Interlake Material Hand-
                      ling Division, Contract Number GS-00F-03041

08/07/92   A20681     Preaward Audit of Multiple Award Schedule Contract:
                      Canon U.S.A., Incorporated, Solicitation Number GSC-
                      KESV-00062-N

08/12/92   A21543     Audit of Request for Equitable Adjustment: Interlake Mate-
                      rial Handling Division, Contract Number GS-OOF-03041

08/17/92   A22502     Pre award Audit of Multiple Award Schedule Contract:
                      Anacomp, Incorporated, Solicitation No. GSC-KESO-C-
                      00047-N-4-21-92

08/18/92   A22496     Preaward Audit of Multiple Award Schedule Contract:
                      Boole and Babbage, Inc., Solicitation Number GSC-KESO-
                      C-00047-N-4-21-92

08/19/92   A22174     Preaward Audit of Cost or Pricing Data: Teleom Systems
                      Services, Inc., Solicitation Number GSC-KESV-00062-
                      N-05-06-92




                                                                                   Office of Inspector General   49
                     Appendix //- Audit Report Register
                                                                                           Financial
                                                                                      Recommendations      ------.
                                                                                   ------,-------------~----   - -

                                                                                   Funds To      Questioned
Date of     Audit                                                                  Be Put To    (Unsupported)
Report      Number                              Title                              Better Use        Costs

08/26/92    A22493      Pre award Audit of Multiple Award Schedule Contract:
                        Sun Microsystems Federal, Inc., Solicitation Number
                        GSC-KESO-C-0004 7 -N-4-21-92

08/27/92    A20946      Audit ofTennination Proposal: Computer Associates Inter-
                        national, Inc., Contract Number GS-00F-03041

08/31/92    A20338      Preaward Audit of Multiple Award Schedule Contract:
                        Prime Computer, Inc., Solicitation Number GSC-KESO-
                        C-00047

09/02/92    A20340      Preaward Audit of Multiple Award Schedule Contract:
                        Data General Corporation, Solicitation Number GSC-
                        KESO-C-00047

09/04/92    A22508      Preaward Audit of Multiple Award Schedule Contract:
                        Calcomp Incorporated, Solicitation Number GSC-KESO-
                        C-00047-N-4-21-92

09/08/92    A22494      Preaward Audit of Multiple Award Schedule Contract:
                        Oracle Corporation, Solicitation Number GSC-KESO-C-
                        00047-N-4-21-92

09/08/92    A22501      Preaward Audit of Multiple Award Schedule Contract:
                        Global Wulfsberg Systems Division, Solicitation No. GSC-
                        KESR-00063-N-05-13-92

09/09/92    A22162      Preaward Audit of Multiple Award Schedule Contract:
                        Harris Adacom Corporation, Solicitation Number GSC-
                        KESO-C-00047 -N-4-21-92

09/10/92    A22504      Preaward Audit of Multiple Award Schedule Contract:
                        Magnavox Electronic Systems Company, Solicitation No:
                        GSC-KESR-00063-N-05-13-92

09/10/92    A23351     Postaward Audit of Multiple Award Schedule Contract:                                    $3,084
                       Comdial Corporation, Inc., Contract Number GSOOK92-
                       AGS0455

09/16/92    A22165     Preaward Audit of Multiple Award Schedule Contract:
                       BMC Software, Inc., Solicitation Number GSC-KESO-C-
                       00047-N-4-21-92

09/17/92   A20334      Preaward Audit of Multiple Award Schedule Contract:
                       Wang Laboratories, Incorporated, Solicitation Number
                       GSC-KESO-C-00047



50 Semiannual Report To The Congress
                     Appendix // .... Audit Report Register
                                                                                          Financial
                                                                                     Recommendations
                                                                                                ~----.~-~~.--~




                                                                                  Funds To      Questioned
Date of     Audit                                                                 Be Put To    (Unsupported)
Report      Number                             Title                              Better Use        Costs

09/17/92    A22498     Preaward Audit of Multiple Award Schedule Contract:
                       ICL. Inc.• Solicitation Number GSC-KESO-C-00047-N-
                       4-21-92

09/18/92    A23343     Preaward Audit of Multiple Award Schedule Contract:
                       Comdial Corporation, Inc .. Solicitation Number GSC-
                       KESV-00062-N -05-06-92

09/22/92    A20333     Preaward Audit of Multiple Award Schedule Contract:
                       Digital Equipment Corporation. Solicitation Number GSC-
                       KESO-C-00047

09/22/92    A22164     Preaward Audit of Multiple Award Schedule Contract:
                       Standard Communications Corporation. Solicitation Num-
                       ber GSC-KESR-00063-N-05-13-92

09/24/92    A21255     Preaward Audit of Multiple Award Schedule Contract:
                       Lanier World-wide. Inc .. Solicitation Number GSC-KESV-
                       00062-N-05-06-92

09/29/92    A21874     Preaward Audit of Multiple Award Schedule Contract:
                       Harris Corporation. Computer Systems Division. Solici-
                       tation Number GSC-KESO-C-0004 7 -N-4-21-92

09/29/92    A23350     Preaward Audit of Cost or Pricing Data: RO.W. Sciences.
                       Inc .. Solicitation Number GS-KEGD-92-0004

OTHER INTERNAL AUDITS
04/10/92    A22428     Audit of Imprest Fund. Sansome Street Field Office.
                       Region 9

04/23/92    A22136     Audit of Imprest Fund. Denver Buildings Management
                       Field Office. Region 8

04/24/92    A22425     Audit of Time and Attendance Practices. Federal Pro-
                       tective Service Division. Seattle. Washington

05/13/92    A21858     Audit of Time and Attendance Practices. Region 6 Finance
                       Division. Accounting Operations Branch

05/ 19/92   A20942     Audit of the Camden Field Office Imprest Fund

06/17/92    A22413     Audit of Business Service Center. Los Angeles,
                       California, Region 9




                                                                                  Office of Inspector General   51
                      Appendix // . . . Audit Report Register
                                                                                           Financial
                                                                                      Recommendations
                                                                                   Funds To      Questioned
Date of    Audit                                                                   Be Put To    (Unsupported)
Report     Number                               Title                              Better Use        Costs


06/18/92    Al 1024     Audit of the Development of GSA's New Payroll System

06/18/92   A21216       Audit of Montgomery, Alabama, Imprest Fund Opera-
                        tions, Region 4

06/19/92    A22731      General Services Administration Results of the Fiscal
                        Years 1991 and 1990 Consolidated Financial Statements
                        Audit

06/23/92    A20940      Audit of Time and Attendance Practices, Huntington Field
                        Office, Roanoke Sub-Field Office, Parkersburg Satellite
                        Office

06/30/92   A20001       OIG Audit Highlights of GSA Services and Staff Offices
                        Reviewed in Fiscal Year 1991

07/13/92    A21869      Audit of Imprest Fund Operations, Federal Protective
                        Service, District Office, Kansas City, Missouri

07/21/92   A20949       Audit of11me and Attendance Practices, Pittsburgh Field
                        Office

08/20/92   A21538       Audit of Imprest Fund, Dayton Fleet Management
                        Center, Region 5

08/25/92   A22158       Audit of Imprest Fund, Beaumont Buildings Manage-
                        ment Field Office, Region 7

08/26/92   A20947       Audit of the Pittsburgh Field Office Imprest Fund

08/31/92   A11520       Audit of Imprest Fund, National Capital Region,
                        Washington, DC

09/01/92   A22468       Audit of Imprest Fund: Tucson Field Office, Region 9

09/01/92   A22474       Audit ofImprest Fund: Nogales Border Station, Region 9

09/15/92   A22134       Review of Time and Attendance Practices, Denver
                        Federal Center

09/23/92   A20683       Audit of Imprest Fund, Albany Buildings Management
                        Field Office

09/29/92   A22155       Audit ofImprest Fund, Administrative Services Division,
                        Region 8




52 Semiannual Report To The Congress
                     Appendix //- Audit Report Register
                                                                                            Financial
                                                                                       Recommendations
                                                                                    -------~   ..
                                                                                                ~




                                                                                    Funds To       Questioned
Date of    Audit                                                                    Be Put To     (Unsupported)
Report     Number                               Title                               Better Use        Costs


OTHER CONTRACT AUDITS
04/22/92   A 10252     Postaward Audit of Compliance with the Excess Profits                          $66,682
                       Clause, a Covenant to the Deed for Hog Island, Hull,
                       Massachusetts

09/03/92   A21866      Audit of Subcontractor Report: U.S. Sprint Communi-
                       cations Company, Contract Number GSOOK89AHD0009

NON..GSA               INTERNAL AUDITS
08/27/92   A23344      Audit of the Administrative Procedures of the Adminis-
                       trative Conference of the United States

09/29/92   All 524     Audit of the National Transportation Safety Board's Admin-
                       istrative Procedures and Practices for Travel




                                                                                     Office of Inspector General 53
                             Appendix 111-                       linquent Debts

GSA's Office of the Chief Financial Officer provided the fol-         enhancements for the Department of Justice con-
lowing information:                                                   cerning claims forwarded for litigation, credit bureau
                                                                      reports and reporting, and streamlining the debt col-
                                                                      lection process.
GSA Efforts to Improve Debt Collection
                                                                 ..   Converted the Claims Collection Litigation Report to
During the period April 1, 1992 through September 30,                 a personal computer format, thus improving the time-
1992, GSA efforts to improve debt collection and reduce               liness of the submission of these reports to the Depart-
the amount of debt written-off as uncollectible focused on            ment of Justice.
upgrading the collection function and enhancing debt
management. These activities included the follOwing:            ..    Centralized employee claims in our Kansas City
                                                                      Finance Division, which will result in improved col-
..     Began using Department of the Treasury's CASH-UNK              lection rates and decreased write-offs.
       program, an on-line program which provides daily
       deposit information. It also provides a contact person   ..    Implemented a new personal computer application to
       at any bank and at Treasury to resolve anyadjust-              track outleases.
       ing or reconciling items as they happen.
                                                                ..    Conducted annual review of the operations in one region
..     Participated in the Debt Collection and Credit Forum           to ensure compliance with the provisions of the Debt
       with other regional agencies. The forum for the last           Collection Act of 1982. Part of the review covered
       quarter of the fiscal year focused on the latest               account servicing procedures for non-Federal activity.


Non-Federal Accounts Receivable

                                                         As of                   As of
                                                     April 1, 1992         September 30. 1992            Difference

     Total Amounts Due GSA                            $44,532,519               $40,731,473              $3,801,046
     Amount Delinquent                                $21,048,960               $20,202,145              $ 846,815

     Total Amount Written
     Off as Uncollectible
     Between 4/1/92 and
     9/30/92                                            $1,311,328



Of the total amounts due GSA and the amounts delin-             $2.9 million and $2.8 million, respectively are being
quent as of April 1, 1992 and September 30, 1992,               disputed.




54 Semiannual Report To The Congress
                        A endix IV -- Reporting Requiremen

The table below cross-references the reporting require-                                Report No. 96-829 relative to the 1980 Supplemental
ments prescribed by the Inspector General Act of 1978,                                 Appropriations and Rescission Bill is also cross-referenced
as amended, to the specific pages where they are addressed.                            to the appropriate page of the report.
The information requested by the Congress in Senate



                                              Requirement                                                                                                   Page

Inspector General Act
     Section 4(a)(2)-Review of Legislation and Regulations ............................................................................... 15

     Section 5(a)(I)-Significant Problems, Abuses, and Deficiencies ................................................................ 3, 7

     Section 5(a)(2)-Recommendations With Respect to Significant Problems, Abuses, and Deficiencies ....... 3, 7

     Section 5(a)(3)-Prior Recommendations Not Yet Implemented .................................................................. 25

     Section 5(a)(4)-Matters Referred to Prosecutive Authorities ....................................................................... 20

     Sections 5(a)(5) and 6(b)(2)-Summary ofInstances Where Information Was Refused ........................... None

     Section 5(a)(6)-List of Audit Reports ........................................................................................................... 27

     Section 5(a)(7)-Summary of Each Particularly Significant Report ............................................................ 3,7

     Section 5(a)(S)-Statistical Tables on Management Decisions on Questioned Costs ................................... 19

     Section 5(a)(9)-Statistical Tables on Management Decisions on Recommendations That
     Funds Be Put to Better Use ......................................................................................................................... IS

     Section 5(a)(10)-8ummary of Each Audit Report Over 6 Months Old for Which No
     Management Decision Has Been Made ................................................................................................... None

     Section 5(a)(11)-Description and Explanation for Any Significant Revised Management Decision ....... None

     Section 5(a)(12)-Information on Any Significant Management Decisions With Which the
     Inspector General Disagrees .................................................................................................................... None

Senate Report No. 96-829
     Resolution of Audits ..................................................................................................................................... 17

     Delinquent Debts ......................................................................................................................................... 54




                                                                                                                             Office of Inspector General             55
                                       Notes




56 Semiannual Report To The Congress
Notes




        Office of Inspector General 57
                                       Notes




58 Semiannual Report To The Congress
                         p
Federal Recycling Program ~., Printed on Recycled Paper
